<html>
<title> - IRANIAN POLITICAL AND NUCLEAR REALITIES AND UNITED STATES POLICY OPTIONS</title>
<body><pre>[Senate Hearing 111-84]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-84
 
   IRANIAN POLITICAL AND NUCLEAR REALITIES AND UNITED STATES POLICY 
                                OPTIONS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                  U.S. GOVERNMENT PRINTING OFFICE
52-190                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Fitzpatrick, Mark, senior fellow for nonproliferation, 
  International Institute for Strategic Studies, London, United 
  Kingdom........................................................     5
    Prepared statement...........................................     8
    Responses to questions submitted by Senator John Kerry.......    52
Haass, Hon. Richard N., president, Council on Foreign Relations, 
  New York, NY...................................................    27
    Prepared statement...........................................    31
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, statement.....     4
Sadjadpour, Karim, associate, Carnegie Endowment for 
  International Peace, Washington, DC............................    11
    Prepared statement...........................................    14
Wisner, Frank G., II, former U.S. Ambassador to Zambia, Egypt, 
  the Philippines, and India, New York, NY.......................    20
    Prepared statement...........................................    23

              Additional Material Submitted for the Record

Gillibrand, Hon. Kirsten, U.S. Senator from New York, prepared 
  statement......................................................    51

                                 (iii)

  


   IRANIAN POLITICAL AND NUCLEAR REALITIES AND UNITED STATES POLICY 
                                OPTIONS

                              ----------                              


                         TUESDAY, MARCH 3, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present. Senators Kerry, Menendez, Casey, Kaufman, Lugar, 
and Risch.

  OPENING STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    The Chairman. The hearing will come to order. Thank you 
very much for being here to join us today.
    And we're very pleased to welcome an outstanding panel of 
witnesses for this hearing. These witnesses, frankly, have a 
tall order today, because we've asked them to help us 
understand the way forward in dealing with one of the most 
urgent challenges that currently faces all of us. I can't 
imagine a better group to kick off the first of 3 days of 
public and classified briefings and hearings on Iran's nuclear 
program and the policy options facing us.
    I'm particularly happy to welcome back a couple of very 
familiar faces. Ambassador Frank Wisner has been here many 
times, in many capacities. And, Frank, we appreciate your 
willingness to share the insights you've gained from a very 
long and distinguished career in public service.
    Ambassador Wisner. Thank you, sir.
    The Chairman. I'm pleased also to have Richard Haass here 
across the table from us once again. There are few people 
better qualified to provide us with a strong perspective on 
where Iran fits into the world's geopolitical map. And we 
appreciate your leadership on the Council on Foreign Relations.
    Mark, thank you, also, for joining us here. You bring a 
long experience in the field of nonproliferation, and an 
analyst's keen eye on just how far down the road Iran has 
gotten since its secret nuclear program was exposed 6\1/2\ 
years ago.
    Nobody has to emphasize, but I suppose we ought to restate, 
that we are living through a very difficult and uncertain time. 
And we are rightly focused heavily on the state of our economy. 
But, as a nation, and particularly on this committee, we cannot 
afford to ignore the challenges outside of our borders.
    Right near the top of that list of challenges is Iran and 
its troubling nuclear program. The impact of Iran's steady 
nuclear progress is real. When I was in the Middle East, just a 
few days ago, I encountered deep worries in every Arab capital 
about Iran's ascendancy and the possibility that it will build 
an atomic weapon. And, of course, in Israel the anxiety is not 
just high, it is an existential threat.
    What we know about Iran's nuclear missile progress raises 
grave concerns for us and our allies. Iran has built a uranium 
enrichment plant approximately 75 feet underground at Natanz, 
where nearly 4,000 centrifuges are spinning away, enriching 
uranium, with hundreds more centrifuges apparently ready to 
start up soon. Just 2 weeks ago, the International Atomic 
Energy Agency reported that the plant has enriched enough 
reactor-grade uranium to, theoretically, allow Iran to make an 
atomic bomb.
    On Sunday, ADM Mike Mullen, Chairman of the Joint Chiefs of 
Staff, confirmed the IAEA report, saying publicly that the 
United States believes Iran has amassed enough uranium to build 
an atomic bomb, if its leaders were to take the reckless step 
of further enriching that stockpile to weapons grade. We are 
determined--and I believe it is the appropriate policy--to stop 
Iran from taking that very dangerous next step.
    At the same time, Iran continues to defy the United Nations 
Security Council by constructing a reactor at Arak, that, if it 
were completed, looks to be very well suited for producing 
weapons-grade plutonium. The IAEA reports that Iran has 
recently impeded its access to this facility. And Iran 
continues to test ballistic missiles and to launch so-called 
space-launch vehicles that Iran can learn from to expand its 
ballistic missile capability.
    But, what we do not know about Iran's program is even more 
alarming. For 6 years, the IAEA has been asking Iran to answer 
questions about the possible military dimensions of its nuclear 
program. The questions have grown more substantive and pointed 
as time has passed, and Iran has grown more defiant, ignoring 
sanctions by the U.N. Security Council and obstructing the 
IAEA.
    Because of its history of concealment and deception, we 
cannot afford to take Iran at its word that its nuclear 
ambitions are solely civilian. Its leaders must answer the 
IAEA's questions fully and quickly, and should comply, as other 
nations have complied that are signatories to the NPT.
    These gaps in what we know about Iran's nuclear program are 
significant, and they are dangerous. I hope our witnesses will 
help fill some of them in.
    For me, some of the most troubling unanswered questions 
were raised in documents that were reportedly found on a laptop 
computer obtained by the CIA in 2004. Among the thousands of 
pages of data from that computer are, according to press 
reports, documents that appear to show blueprints for a nuclear 
warhead and designs for missiles to carry it. One of those 
designs apparently tracked the flight of the missile and showed 
the detonation of its explosives 600 meters above the ground. 
Well, folks, that's a lousy height for a conventional weapon, 
but it's a devastating altitude for a nuclear weapon intended 
to wipe out a city.
    Iran has refused to answer the toughest of these questions. 
And just last week, a U.N. official acknowledged to my staff 
that talks between the IAEA and Tehran have reached an impasse. 
The official said he didn't know what comes next.
    Well, we do know what comes next. The Obama administration 
has said that it wants to open direct talks with Iran. This is 
the right first step, and I applaud the President for taking 
it. But, we also need to be honest with ourselves: Just talking 
will not solve this problem, even direct talks between 
Washington and Tehran. While Iran was ``just talking'' to the 
IAEA and the Europeans, it deftly sidestepped every redline 
laid down by the international community. While Iran was ``just 
talking'' to the world, it moved to the threshold of becoming a 
nuclear state.
    I point this out, not to lay blame; I point this out, 
because we cannot move forward to a solution without 
understanding how we got to this dangerous juncture in history. 
The time for incremental steps and unanswered questions is 
over.
    Talking with Iran is the right starting point. I have 
supported this idea for many years, and I'm glad that the day 
is coming. But, the fact is that the United States must open 
these talks from a position of strength. The President's recent 
announcement of a responsible redeployment plan for Iraq is a 
step in the right direction, but we need the full backing of 
our allies in Europe, as well as Russia, China, and other 
countries, as we sit down across the table from the Iranians. 
This is not just an American problem, and it will not be just 
an American solution. Our friends and allies need to understand 
this.
    And Iran needs to understand that these will not be drawn-
out negotiations. That's a scenario that would give Tehran a 
green light for more progress on enrichment and other nuclear 
projects, some still being carried out in the dark.
    We need to set a timetable for substantive progress, and we 
need to make sure that Iran's leaders understand that the full 
weight of the international community will come down on them if 
this issue is not resolved. And by ``full weight,'' I mean 
tougher economic sanctions, such as further restrictions on 
trade and finance, which will apply meaningful pressure on the 
Iranian regime at a time when oil prices have plummeted and its 
economy is hurting.
    The solution to this problem does lie within our reach. 
With our friends and allies, we need to act boldly and wisely 
to engage Iran, backed by real consequences for its continued 
noncompliance.
    I look forward to the guidance that we're going to receive 
from our distinguished panel this morning, and from GEN Brent 
Scowcroft and Zbigniew Brzezinski on Thursday morning.
    And let me welcome, now, our one other witness who is here, 
Karim Sadjadpour, now an associate at the Carnegie Endowment 
for International Peace, whose intimate knowledge of Iran's 
senior officials, clerics, and dissidents offers the committee 
a genuine insider's perspective. Frankly, we've operated 
frequently without understanding fully the realities on the 
other side of this critical issue, and I think--we welcome your 
contribution to that.
    With that, let me turn now to Senator Lugar.

 STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM INDIANA

    Senator Lugar. Why, thank you, Mr. Chairman, for holding 
this important hearing on our policy toward Iran.
    Two weeks ago, as you pointed out, the International Atomic 
Energy Agency released a report on Iran that reached four major 
conclusions.
    First, the report said that, ``There remains a number of 
outstanding issues which give rise to concerns about the 
existence of possible military dimensions to Iran's nuclear 
program.''
    Second, Iran has refused to permit IAEA inspectors access 
to additional locations related to the manufacture of 
centrifuges, research and development on uranium enrichment, 
and uranium mining and milling.
    Third, unless Iran implements transparency measures and the 
additional protocol, the IAEA will not be in a position to 
provide credible assurance about the absence of undeclared 
nuclear material and activities in Iran.
    Last, the report said Iran has not suspended its 
enrichment-related activities or its work on heavy-water-
related projects.
    The exact status of Iran's nuclear program and the degree 
of progress Iran has made toward a potential nuclear weapon 
have been debated extensively, but, as the IAEA report 
underscores, Tehran clearly is not complying with international 
nonproliferation regime, and there is widespread agreement that 
Iran has not been truthful about its nuclear program or its 
missile development. Its decision to move ahead with uranium 
enrichment was condemned by the international community. Iran's 
intransigence has triggered United Nations Security Council 
sanctions on three occasions.
    In recent weeks, Tehran announced the launching of its 
first domestically produced satellite into space. Iran has also 
announced that the Russian-built nuclear powerplant at Bushehr 
will undergo testing prior to beginning operations this year.
    Despite these steps, the international community's leverage 
with regard to Iran has increased significantly in recent 
months. The Iranian regime is under economic pressure due to 
falling oil prices and multilateral sanctions. Iran's isolation 
has contributed to lagging investments in its oil and natural 
gas industries. The National Academy of Science speculates that 
this trend could lead to sharply lower Iranian energy exports 
by 2015.
    United Nations sanctions have also encouraged foreign 
governments and banks to curtail or end commercial ties to 
Iran.
    It is clear that Tehran would like to split the 
international community, or at least delay concerted action. 
The task for American diplomats continues to be to solidify an 
international consensus in favor of a plan that presents the 
Iranian regime with a stark choice between the benefits of 
accepting a verifiable limitation on its nuclear program and 
the detriments of proceeding along the current course.
    And even as we pursue sanctions or other joint action, it's 
important we continue to explore potential diplomatic openings 
with Iran. I strongly supported the Bush administration's 
decision to send Under Secretary of State Bill Burns to 
participate in negotiations, hosted by our European allies, 
with Iran's chief nuclear negotiator, the so-called ``P5+1.'' I 
believe we must be open to some level of direct communication 
with Iran. Even if such efforts do not produce agreements, they 
may reduce risk of miscalculation, improve our ability to 
interpret what is going on in Iran, and dispel anti-American 
rumors among the Iranian people, and strengthen our efforts to 
enlist the support of key nations in responding to Iranian 
threats.
    Despite the Iranian Government's provocative policies, the 
young and educated people of Iran are among the most pro-
American populations in the Middle East. Most Iranians favor 
greater economic and social integration with the rest of the 
world, access to technological advancements, and a more open 
political system. Positive transformation in Iran is inhibited 
by the lack of accurate information reaching the Iranian people 
about what their government is doing and about the 
international community's efforts to resolve the current 
crisis.
    The United States and other nations must work to broaden 
the information available to Iranians. Among other steps, the 
possibility of establishing a United States visa office or some 
similar diplomatic presence in Iran should be on the table, and 
such an outpost would facilitate more exchange and outreach 
with the Iranian people.
    Regardless of its precise strategy on Iran, the Obama 
administration must make execution of an Iran policy a 
priority, and this will require focused diplomacy, with 
European allies and with other partners, on constructing a 
multilateral program that intensifies the costs to Tehran if it 
resists transparency and continues its nuclear weapons 
activities.
    I welcome, along with our chairman, the distinguished 
witnesses that we have before us, and look forward to their 
testimony.
    Thank you.
    The Chairman. Thanks so much, Senator Lugar. And I 
appreciate, without collaboration, the sort of synchronicity of 
our comments. And I think it's important.
    Normally by, sort of, rank, we would start with you, 
Ambassador Wisner, but we want to, if you don't mind, lay out, 
sort of, first--we're going to ask Mark Fitzpatrick to start 
with his testimony to sort of look inside. Then we'd like to 
ask Karim Sadjadpour to look inside the nuclear issue, and 
then--Karim will sort of lay out--and then both of you can 
really lay out the policies, sort of, in response to that. And 
I think it would be great.
    So, if we could begin with you, Mark, we'd appreciate it.

       STATEMENT OF MARK FITZPATRICK, SENIOR FELLOW FOR 
    NONPROLIFERATION, INTERNATIONAL INSTITUTE FOR STRATEGIC 
                STUDIES, LONDON, UNITED KINGDOM

    Mr. Fitzpatrick. Thank you, Mr. Chairman, Senator Lugar, 
other Senators. It's an honor to be asked to testify today on a 
matter that I've been following for almost 12 years, in and out 
of government. Iran today has reached a status I have long 
dreaded. It operates a semi-industrial-scale uranium enrichment 
facility and is building up a stockpile of enriched uranium 
that is of no current use to its civil nuclear energy program, 
but that could be put to weapons purposes. Meanwhile, Iran is 
also building a research reactor that will be ideal for 
producing plutonium, the other path to nuclear weapons.
    Whether or not Iran chooses to go down the weapons route, 
its persistence in developing such capabilities could have 
profoundly disturbing consequences, including by potentially 
sparking a proliferation cascade in the Middle East and beyond.
    The danger is compounded by Iran's failure to cooperate 
with the International Atomic Energy Agency's investigation of 
past Iranian nuclear activities and its verification of new 
undertakings.
    Iran refuses to answer questions about the strong evidence 
of past nuclear weapons development work, including, for 
example, evidence of foreign help with experiments on a 
detonator suitable for an implosion-type weapon. Iran has also 
unilaterally and illegally rejected its treaty obligation to 
provide advance declarations of new nuclear facilities, and to 
allow inspectors regular access to facilities under 
construction, such as the research reactor at Arak. What Iran 
chooses not to disclose is difficult to discover.
    According to the latest IAEA report, as of mid-February 
Iran was operating almost 4,000 centrifuges at its underground 
uranium enrichment facility at Natanz, and was getting ready to 
begin operating about 2,000 more. The piping is being installed 
for an additional 9,000 centrifuges, which would bring the 
total to 15,000 at some unspecified future date. All the 
centrifuges operating in the underground facility so far are of 
the P-1--that is, Pakistan first generation--model, although 
Iran continues to experiment with more efficient later model 
centrifuges in an above-ground pilot plant at Natanz.
    By the end of January, Iran had produced a metric ton of 
gasified uranium enriched to the 3-percent U235 isotype level 
needed to fuel most nuclear powerplants. The IAEA estimates 
that Iran was adding about 100 kilograms a month to its 
stockpile. If it is further enriched--and that is a big 
``if''--the uranium content of the Natanz production to date is 
sufficient, in principle, to provide the fissile material for 
one nuclear weapon. Iran thus has a latent breakout capability.
    The accumulation of this much low-enriched uranium makes 
the Iran challenge more acute, but several caveats are in 
order, including the range of uncertainty in the variables that 
feed into the equation of how much is enough for a weapon. 
Because the low-enriched uranium is under IAEA's surveillance, 
further enriching it could not be done without tipping off 
inspectors.
    And the basic truth bears repeating, that having a 
stockpile of enriched uranium is not the same as having a bomb. 
Treating Iran's enrichment capabilities as equivalent to 
nuclear-weapon status would empower its hardline leaders and 
exaggerate the perception of danger among Iran's neighbors, 
increasing whatever security motivations they may already have 
for keeping open a nuclear weapons option of their own.
    For a weapon, the low-enriched uranium first would have to 
be further enriched to 90 percent or more. Although it may be 
counterintuitive, about two-thirds of the effort required to 
produce weapons-grade uranium has already been expended by the 
time it is enriched to just 4 percent. Nevertheless, the 
further enrichment to weapons-grade would still take several 
weeks.
    Based on public information, it is impossible to say how 
long it would then take Iran to reconvert the gaseous highly 
enriched uranium to metal and fashion a weapon from it, but a 
rough estimate might assign at least 6 months or more to the 
task. Other nations would then have some time to react.
    Having just enough enriched uranium for one weapon, even 
once enriched to weapons-grade, cannot be said to confer 
nuclear weapons status. A real deterrent capability would 
require more. Most countries also feel the need for a test to 
ensure reliability, although this perhaps would not be 
necessary if Iran received a proven weapons design through the 
black market. The notorious Pakistan black-marketer, A.Q. Kahn, 
sold a nuclear weapons design to Libya at the beginning of the 
decade, and other members of his network made digital copies of 
the blueprints.
    There is no publicly available evidence that Iran obtained 
a weapons design, as well. It is noteworthy, however, that the 
Libya blueprints have been described as being from the same 
family as the documentation that Iran admitted it did receive 
from the Kahn network in 1987 on the casting of uranium in 
hemispherical shapes.
    As has been widely reported, the U.S. intelligence 
community assessed that Iran was working on a nuclear weapons 
development up until late 2003. What has not been reported, and 
is probably unknown, is how far Iran got in this research. The 
publicly available evidence suggests that it was at the 
developmental, not yet operational, stage.
    Whether Iran has actually made a decision to build nuclear 
weapons is uncertain, but its purpose in pursuing uranium 
enrichment clearly seems to have a weapons options for the 
future. It is hard to reach any other logical conclusion, based 
on the secrecy and deception behind the program, the military 
connections, and evidence of weapons development work, and the 
economic illogic of investing in these expensive technologies 
without having any powerplants that can use the enriched 
uranium.
    With regard to this last point, for example, the Bushehr 
reactor that underwent a startup test last week, can be run 
safely only on fuel made in Russia. Iran's claims about the 
purpose of its enrichment program obfuscate this point.
    Iran's main justification has been an argument for self-
sufficiency. The argument breaks down, on several grounds, 
however, including that Iran's known uranium reserves are 
insufficient for the nuclear power program it envisions. Iran 
already has exhausted most of its stock of uranium concentrate, 
known as ``yellow cake,'' in order to produce 357 metric tons 
of uranium hexafluoride at its facility at Esfahan. This is far 
from sufficient for a power program, but is enough feed 
material for at least three dozen weapons.
    A key policy challenge is how to build a barrier between 
the latent nuclear weapons capability and actual weapons 
production. This is difficult when, in Iran's case today, the 
distinction is blurred almost to the point of invisibility. The 
United States and its allies do, however, have several policy 
tools to help keep Iran's enrichment program from unlimited 
expansion. If Iran continues to defy the Security Council, its 
enrichment program can be constrained by export controls, 
sanctions, financial pressure, interdiction, and other means of 
exploiting Iran's vulnerabilities.
    Among the dangers presented by Iran's nuclear program is 
the risk that it will start a domino effect in the region. Many 
of Iran's neighbors are concerned about its growing weapons 
capability. For some states, such as its gulf neighbors, an 
Iranian nuclear weapon would present a direct and dire threat. 
For others, such as Egypt and Turkey, the threat is indirect 
and more tied to concerns about the power balance and loss of 
relative status and influence in the region. Together, these 
concerns have contributed to a surge of interest in nuclear 
power in the region, almost certainly, in part, to signal to 
Iran and to their own populations that they have a hedging 
strategy.
    Since 2006, 15 countries in the Middle East have announced 
new or revived plans to explore civilian nuclear energy. 
They've justified their interest in terms of electricity needs, 
energy diversification, a desire to conserve oil and gas for 
export earnings, and the role of nuclear energy in retarding 
global warming. They do not talk openly about it in strategic 
terms, and certainly do not say they want nuclear energy as the 
building block for an atomic bomb, but they do see nuclear 
energy as a status symbol and a way to keep technological pace 
with Iran. The question is how to keep this interest confined 
to purely civilian nuclear programs. Keeping Iran from getting 
nuclear weapons is the best preventative.
    Nuclear power, in itself, is not a proliferation threat. It 
can contribute to proliferation risks by providing cover for 
clandestine activities and an industrial and personnel 
infrastructure that could be useful to a weapons program. 
However, it is only the sensitive areas of the fuel cycle, 
primarily uranium enrichment and plutonium reprocessing, that 
present the problem. If states agreed to forgo these 
technologies and to accept enforceable transparency measures, 
then nuclear power can contribute to their economic development 
without sparking proliferation concerns.
    A good example of this is the decision by the United Arab 
Emirates to forgo enrichment and reprocessing, and to accept 
the IAEA safeguards additional protocol. This sets a positive 
model for the region and beyond, in stark contrast with Iran. 
If such a stance helps the UAE to acquire state-of-the-art 
nuclear technology from the West, the Iranian people might well 
ask their leaders why they persist with policies that lead to 
increasing political and economic isolation while their gulf 
neighbors can freely enjoy the benefits of peaceful nuclear 
cooperation.
    Mr. Chairman, I'll stop here and submit the rest of my 
testimony and prepared remarks.
    [The prepared statement of Mr. Fitzpatrick follows:]

     Prepared Statement of Mark Fitzpatrick, Senior Fellow for Non-
 Proliferation, International Institute for Strategic Studies, London, 
                             United Kingdom

    It is an honor to testify before this hearing on a matter that I 
have been following for almost 12 years, both in and out of government. 
Iran today has reached a status I have long dreaded: It operates a 
semi-industrial-scale uranium enrichment facility and is building up a 
stockpile of enriched uranium that is of no current use to its civil 
nuclear energy program but that could be put to weapons purposes. 
Meanwhile Iran is also building a research reactor that will be ideal 
for producing plutonium--the other path to nuclear weapons. Whether or 
not Iran chooses to go down the weapons route, its persistence in 
developing such capabilities could have profoundly disturbing 
consequences, including by potentially sparking a proliferation cascade 
in the Middle East and beyond.
    The danger is compounded by Iran's failure to cooperate with the 
International Atomic Energy Agency (IAEA)'s investigation of past 
Iranian nuclear activities and its verification of new undertakings. 
Iran refuses to answer questions about the strong evidence of past 
nuclear weapons development work, including, for example, evidence of 
foreign help with experiments on a detonator suitable for an implosion-
type weapon. Iran has also unilaterally and illegally rejected its 
treaty obligation to provide advance declarations of new nuclear 
facilities and to allow inspectors regular access to facilities under 
construction, such as the research reactor. What Iran chooses not to 
disclose is difficult to discover.
    According to the latest IAEA report, as of mid-February Iran was 
operating almost 4,000 centrifuges at its underground uranium-
enrichment facility at Natanz and was getting ready to begin operating 
about 2,000 more. The piping is being installed for an additional 9,000 
centrifuges, which would bring the total to 15,000, at some unspecified 
future date. All the centrifuges operating in the underground facility 
so far are of the P-1 model (Pakistan first generation), although Iran 
continues to experiment with more efficient later model centrifuges in 
an above-ground pilot plant at Natanz.
    By the end of January, Iran had produced a metric ton of gasified 
uranium enriched to the 3.5-percent U235 isotope level needed to fuel 
most nuclear powerplants. The IAEA estimates that Iran was adding about 
100kg a month to its stockpile. If it is further enriched, the uranium 
content of the Natanz production to date is sufficient in principle to 
provide the fissile material for one nuclear weapon. Iran thus has a 
latent breakout capability.
    The accumulation of this much low-enriched uranium makes the Iran 
challenge more acute. But several caveats are in order; including the 
range of uncertainty in the variables that feed into the equation of 
how much is enough for a weapon. Because the low-enriched uranium is 
under IAEA surveillance, further enriching it could not be done without 
tipping off inspectors. And the basic truth bears repeating, that 
having a stockpile of enriched uranium is not the same as having a 
bomb. Treating Iran's enrichment capabilities as equivalent to nuclear 
weapons status could empower its hard-line leaders and exaggerate the 
perception of danger among Iran's neighbors, increasing whatever 
security motivations they may already have for keeping open a nuclear 
weapons option of their own.
    For a weapon, the low-enriched uranium first would have to be 
further enriched to 90 percent or more. Although it may be 
counterintuitive, about two-thirds of the effort required to produce 
weapons-grade uranium has already been expended by the time it is 
enriched to just 3.5 percent. Nevertheless, the further enrichment to 
weapons-grade would still take several weeks. Based on public 
information, it is impossible to say how long it would then take Iran 
to reconvert the gaseous highly enriched uranium to metal and fashion a 
weapon from it, but a very rough estimate might assign at least 6 
months or more to this task. Other nations would then have some time to 
react, provided they could muster the political will to do so.
    Having just enough enriched uranium for one weapon, even once 
enriched to weapons-grade, cannot be said to confer nuclear-weapons 
status. A real deterrent capability would require more. Most countries 
also feel the need for a test to ensure reliability, although this 
perhaps would not be necessary if Iran received a proven weapons design 
through the black market. The notorious Pakistani black marketer, A.Q. 
Khan, sold a nuclear weapons design to Libya at the beginning of the 
decade, and other members of his network made digital copies of the 
blueprints.
    There is no publicly available evidence that Iran obtained a 
weapons design as well. It is noteworthy, however, that the Libya 
blueprints have been described as being from the ``same family'' as the 
documentation that Iran admitted it did receive from the Khan network 
in 1987 on the casting of uranium in hemispherical shapes.
    As has been widely reported, the U.S. intelligence community 
assessed that Iran was working on nuclear weapons development up until 
late 2003. What has not been reported, and is probably unknown, is how 
far Iran got in this research. The publicly available evidence suggests 
that it was at the developmental--not yet operational--stage.
    Whether Iran has actually made a decision to build nuclear weapons 
is uncertain. But its purpose in pursuing uranium enrichment clearly 
seems to be to have a weapons option for the future. It is hard to 
reach any other logical conclusion, based on the secrecy and deception 
behind the program, the military connections and evidence of weapons 
development work, and the economic illogic of investing in these 
expensive technologies without having any powerplants that can use the 
enriched uranium. With regard to this last point, for example, the 
Bushehr reactor that underwent a startup test last week can be run 
safely only on fuel made in Russia. Iran's claims about the purpose of 
its enrichment program obfuscate this point.
    Iran's main justification has been an argument for self-
sufficiency. The argument breaks down on several grounds, however, 
including that Iran's known uranium reserves are insufficient for the 
nuclear power program it envisions. Iran already has exhausted most of 
its stock of uranium concentrate, known as yellowcake, in order to 
produce 357 metric tons of uranium hexafluoride at its facility at 
Esfahan. This is far from sufficient for a powerplant, but is enough 
feed material for at least three dozen weapons.
    A key policy challenge is how to build a barrier between a latent 
nuclear weapons capability and actual weapons production. This is 
difficult when, as in Iran's case today, the distinction is blurred 
almost to the point of invisibility. The United States and its allies 
do, however, have several policy tools to help keep Iran's enrichment 
program from unlimited expansion. If Iran continues to defy the 
Security Council, its enrichment program can be constrained by export 
controls, sanctions, financial pressure, interdiction, and other means 
of exploiting Iran's vulnerabilities.
    Among the dangers presented by Iran's nuclear program is the risk 
that it will start a domino effect in the region. Many of Iran's 
neighbors are concerned about its growing weapons capability. For some 
states, such as its gulf neighbors, an Iranian nuclear weapon would 
present a direct and dire threat. For others, such as Egypt and Turkey, 
the threat is indirect, and more tied to concerns about the balance of 
power and loss of relative status and influence in the region. 
Together, these concerns have contributed to a surge of interest in 
nuclear power in the region, almost certainly in part to signal to 
Iran--and to their own populations--that they have a hedging strategy.
    Since 2006, 15 countries in the Middle East have announced new or 
revived plans to explore civilian nuclear energy. They have justified 
their interest in terms of electricity needs, energy diversification, a 
desire to conserve oil and gas for export earnings, and the role of 
nuclear energy in retarding global warming. They do not talk openly 
about it in strategic terms, and certainly do not say they want nuclear 
energy as the building block for an atomic bomb. But they do see 
nuclear energy as a status symbol, and a way to keep technological pace 
with Iran. The question is how to keep this interest confined to purely 
civilian nuclear programs. Keeping Iran from getting nuclear weapons is 
the best preventative.
    Nuclear power in itself is not a proliferation threat. It can 
contribute to proliferation risks by providing cover for clandestine 
activities and an industrial and personnel infrastructure that could be 
useful to a weapons programme. However, it is only the sensitive areas 
of the fuel cycle--primarily uranium enrichment and plutonium 
reprocessing--that pose the problem. If states agree to forgo these 
technologies and to accept enforceable transparency measures, then 
nuclear power can contribute to their economic development without 
sparking proliferation concerns.
    The introduction of nuclear energy elsewhere in the Middle East 
should not be seen as a foregone conclusion. To date, no commercial 
contracts have been signed; no irreversible decisions have been made, 
and most of the national plans have been limited to feasibility 
studies. Indeed, there is reason to doubt the will and ability of many 
of the states in the region to follow through with the large technical, 
financial and political challenges of nuclear-energy development. These 
hurdles have postponed many nuclear energy plans in the past and are 
likely to do so again. From a technical standpoint, most of these 
states are starting from a very low base, lacking the necessary 
physical infrastructure, legal systems, and trained scientific and 
engineering personnel. Those states that do go ahead will take 10-15 
years before nuclear power becomes a national reality. There is time, 
therefore, to put in place a robust regime of policies and practices 
that can serve as a bulwark against a proliferation cascade in the 
region.
    In a book-length assessment last year of ``Nuclear Programmes in 
the Middle East: In the Shadow of Iran,'' the International Institute 
for Strategic Studies concluded that if any one of Iran's neighbors 
were to seek to acquire nuclear weapons in response, this would put 
additional pressure on others to do the same. A proliferation cascade 
would become more likely if Israel felt obliged to relinquish its 
longstanding doctrine of nuclear ``opacity'' or ambiguity, whereby it 
refuses to confirm or deny any aspect of its nuclear activities.
    The policies and practices adopted by the next states to embark on 
nuclear power projects can set a new standard to help correct the 
damaging Iranian precedent. Central to this new standard should be a 
shared understanding that the proliferation risks of nuclear energy are 
manageable as long as countries accept full transparency with 
enforceable verification and concentrate on the technologies they 
really need for nuclear power, while relying on more economical imports 
of nuclear fuel, rather than indigenous development of sensitive parts 
of the fuel cycle. A good example of this is the decision by the United 
Arab Emirates unequivocally to forgo enrichment and reprocessing and to 
accept the IAEA safeguards Additional Protocol. This sets a positive 
model for the region and beyond, in stark contrast with Iran. If such a 
stance helps the UAE to acquire state-of-the-art nuclear technology 
from the West, the Iranian people might well ask their leaders why they 
persist with policies that lead to increasing political and economic 
isolation while their gulf neighbours can freely enjoy the benefits of 
peaceful nuclear cooperation.

    The Chairman. Well, Mr. Fitzpatrick, thank you. It's very 
important testimony, very detailed, and we are very, very 
appreciative for that update, and look forward to some 
questions.
    Mr. Sadjadpour.

 STATEMENT OF KARIM SADJADPOUR, ASSOCIATE, CARNEGIE ENDOWMENT 
            FOR INTERNATIONAL PEACE, WASHINGTON, DC

    Mr. Sadjadpour. Thank you very much, Mr. Chairman, Senator 
Lugar. It's an honor to be here----
    The Chairman. Is your mike on?
    Mr. Sadjadpour. I believe it is, yes.
    The Chairman. There it is, yes.
    Mr. Sadjadpour. I will speak louder.
    I will be uncharacteristically brief for a Persian. I will 
be brief in my oral testimony, and I've gone into much greater 
detail in my written.
    We're here to talk about the nuclear proliferation threat 
from Iran today, but I would submit that Iran has a sizable 
influence on six major U.S. foreign policy challenges. There is 
nuclear proliferation, Iraq, Afghanistan, the Arab-Israeli 
conflict, energy security, and terrorism.
    And starting with this premise, I would argue, as you said, 
Mr. Chairman, that shunning Iran is no longer an option. I 
would argue confronting Iran militarily will exacerbate each of 
these issues I just mentioned. And the option we're left with 
is talking to Iran. But, the devil is in the details.
    I think the first question which the Obama administration 
must probe is a seemingly simple one, and that is, Why does 
Iran behave the way that it does? Is Iranian behavior driven by 
this immutable ideology which was born out of the 1979 
revolution and is really incapable of changing? Or is Iranian 
behavior somehow a reaction to punitive United States measures? 
Meaning, could a different approach--namely, a diplomatic 
United States approach--beget a more conciliatory Iranian 
response? I don't think we know the answers to these questions, 
but the only way to test these hypotheses is with direct 
dialog.
    I would argue that the nuclear issue, which we're here to 
talk about today, is a symptom of the mistrust between the 
United States and Iran, but is not an underlying cause of 
tension. And for this reason, I don't believe that there exists 
a technical solution to this nuclear dispute. If President 
Ahmadinejad were to announce a press conference tomorrow 
declaring that Iran has put its nuclear program to rest, no one 
would believe him, nor should we. And I believe that, again, 
there does not exist a technical solution to this issue; it 
will require a broader political accommodation between the 
United States and Iran, whereby Washington reaches a modis 
vivendi with Tehran and Iran ceases its hostile approach toward 
Israel. And we can go into more detail about this.
    Now, I would make three points with regards to policy 
recommendations. And the first point is to commence the dialog 
with Iran by aiming to build confidence on areas of common 
interests. And of the six issues that I mentioned initially, I 
believe that Afghanistan and Iraq are the two best forums in 
which to build confidence with Iran. These are two areas where 
there are broad overlapping interests. There are certainly some 
competing interests as well, but there are broad overlapping 
interests between the two countries; namely, in Afghanistan. 
Iran does not want to see a resurgence of the Taliban, a Sunni 
fundamentalist cult which they almost fought a war with a 
little more than a decade ago. Iran, like the United States, 
wants to see drug trafficking curtailed. And Iran, having 
received over 2 million Afghan refugees in the last few 
decades, certainly does not want to see continued instability 
in Afghanistan. And likewise, we have common interests with 
Iran in Iraq.
    So, I would say the first--the best step to begin this 
conversation, after 30 years of cumulative mistrust, is to try 
to allay this mistrust by working on these areas of common 
interest. And I think those conversations, in and of 
themselves, could have an impact on Iran's nuclear disposition. 
If the United States is able to set a new tone and context for 
the relationship in Afghanistan and elsewhere, I think that, in 
and of itself, could change the calculations--the nuclear 
calculations--of Iran's leadership.
    The second point I would make is to focus on the supreme 
leader in Iran, Ayatollah Khamenei, not the President, Mahmoud 
Ahmadinejad. Ayatollah Khamenei's constitutional authority 
dwarfs that of the President. He has authority over the main 
levers of state--the judiciary, the military, the media; and, 
in the last several years, he has emerged more powerful than 
he's ever been. If you look at the most influential 
institutions within Iran, the Revolutionary Guards, the 
Guardian Council, the Presidency, the Parliament, they're all 
currently led by individuals who were either directly appointed 
by Khameini or unfailingly loyal to him.
    So, I think the focus should be on Ayatollah Khamenei. And 
I've gone into much greater detail in my testimony--my written 
testimony, about Khamenei. But, if I had to describe him in one 
word, it would be ``mistrustful.'' He is deeply mistrustful of 
U.S. intentions. He believes that U.S. policy is not behavior 
change, but regime change. And he is reluctant to show any type 
of compromise, because he believes that if you compromise, you 
project weakness and it will invite even more pressure. So, I 
think one of the great challenges of the Obama administration 
will be to (a) deal directly with Khamenei, and (b) try to 
allay his profound sense of mistrust, and see how that might 
affect Iran's nuclear calculations.
    The third point I would make--which is very much in line 
with Senator Lugar's initial comments--is that it's absolutely 
imperative that we maintain an airtight international approach. 
That includes not only the Europeans, but also the Russians, 
the Chinese, and others. What's absolutely critical is that 
each country approaches Iran with the same talking points, with 
the same redlines, because if different countries approach Iran 
with diverging redlines, I believe the entire diplomatic 
approach could unravel. Iran is very adept at exploiting rifts 
within the international community and it's absolutely critical 
that they receive the same talking points from all of our 
allies.
    Now, I see two major obstacles to any type of confidence-
building or potential thawing in the relationship. And the 
first obstacle I describe as the ``spoilers.'' These are 
factions, entities, and individuals who would not benefit from 
a warming of the United States-Iran relationship. Many are 
hard-liners in Tehran who thrive in isolation, in the sense 
that they have quasi-monopolies on economic power, on political 
power, and they recognize that, were Iran to open up to the 
world, it would dilute the hold they have on power now. And in 
the past, these spoilers have been incredibly adept at 
sabotaging or torpedoing any type of confidence-building. They 
will send arms shipments, meant to be discovered, to Hamas, to 
Hezbollah. They will commit gratuitous human rights abuses. One 
of my friends, Roxana Saberi, who's an Iranian-American 
journalist, was imprisoned last month in Tehran. She's been in 
Evin prison for the last month. And I believe these types of 
actions are meant to gratuitously sabotage any hope for 
confidence-building.
    And I think we, the United States, should not react by 
ceasing dialog with Iran, because that's precisely what these 
spoilers are hoping to achieve. And it's going to be tough, but 
I think we need to continue forward.
    And the big question is the will and the opinion of 
Ayatollah Khamenei himself. And despite his hostile rhetoric, 
we don't know, deep down, whether he's interested in having an 
amicable relationship or not with the United States. But, I 
would argue that if we reach out to Tehran, and he rebuffs our 
overtures, it will create major issues and problems for him in 
Tehran, because, as Senator Lugar mentioned early on, he's 
presiding over a population which is overwhelmingly in favor of 
a normalization with Iran, and even amongst the political elite 
in Tehran, behind closed doors the majority recognize that the 
``Death to America'' culture of 1979 is obsolete in 2009. So, I 
think that even if Iran's senior leadership rebuffs our efforts 
at overtures, it could create problems for them, and could 
create cleavages in Tehran.
    The second big obstacle I see is the Israeli-Palestinian 
conflict. And I see this as the biggest point of contention 
between the United States and Iran, not the nuclear issue. And 
what I would argue is that some type of a parallel-track 
negotiation--Arab-Israeli negotiations, headed by Senator 
Mitchell--could do a great deal in forwarding United States-
Iran confidence-building.
    Iran's position toward Israel is incredibly rigid. I don't 
see them changing that position anytime soon, but the important 
caveat is that Iran's leadership has long said that they will 
accept any agreement which the Palestinians themselves accept. 
I truly believe forward progress on the Arab-Israeli peace 
front could do wonders for United States-Iran confidence-
building.
    The last point, which I will end on, is human rights and 
democracy, because I think there's a valid concern among some 
that if we talk to the Iranian regime, we're somehow selling 
out the demands of the Iranian people, or by dealing with the 
Iranian regime--engagement with the Iranian regime will be at 
the expense of the Iranian people. And on this issue I would 
simply defer to Iran's human rights and democracy activists 
themselves; Iranian Nobel Peace Laureate Shirin Ebadi argues 
that allaying the threat perception of the regime in Tehran, 
and trying to reintegrate Iran into the international global 
economy, will really expedite political and economic reform in 
Iran by creating more fertile ground for democracy and human 
rights.
    Thank you very much.
    [The prepared statement of Mr. Sadjadpour follows:]

 Prepared Statement of Karim Sadjadpour, Associate, Carnegie Endowment 
                for International Peace, Washington, DC

    Mr. Chairman, Senator Lugar, and distinguished members of the 
committee, thank you very much for the opportunity to testify today. 
Given Iran's sizable influence on issues of critical importance to the 
United States--namely Iraq, Afghanistan, the Arab-Israeli conflict, 
terrorism, nuclear proliferation, and energy security--the longstanding 
Washington policy debate about whether or not to ``engage'' has been 
rendered obsolete. Continuing to shun Iran will not ameliorate any of 
the above challenges, and confronting Iran militarily will exacerbate 
all of them. The option we are left with is talking to Tehran.
    Advocating dialogue is easy, but the devil is in the details. With 
whom in Iran should we talk? What should we talk about? How should we 
go about talking? When should we talk? I hope to address these 
questions today.
    That Iran continues to be a primary national security concern is 
evidence of the failure of our steadfast attempts to alter Tehran's 
behavior by isolating it politically and economically. Thirty years 
after the 1979 revolution, Iran remains the State Department's ``most 
active'' state sponsor of terrorism, fervently opposes Israel's 
existence, defiantly moves forward with its nuclear ambitions, and 
continues to represses its own population. More than any previous U.S. 
President, George W. Bush redoubled efforts to counter Iranian regional 
influence and weaken its government. Yet Iran's international reach is 
greater today than ever, and Tehran's hard-liners are firmly in 
control.
    In charting a new strategy, the Obama administration must first 
probe a seemingly simple but fundamental question: Why does Iran behave 
the way it does? Is Iranian foreign policy rooted in an immutable 
ideological opposition to the United States, or is it a reaction to 
punitive U.S. policies? Could a diplomatic U.S. approach beget a more 
conciliatory Iranian response? The only way to test these hypotheses is 
direct dialogue.
    Engagement with the Iranian regime need not, and should not, come 
at the expense of the Iranian people. According to activists like Nobel 
Peace Laureate Shirin Ebadi, the United States can more effectively 
strengthen Iranian civil society and human rights with policies that 
allay Tehran's threat perception and facilitate, rather than impede, 
the country's reintegration into the global economy. To be sure, there 
are no quick fixes or panaceas. The Islamic Republic is not on the 
verge of collapse, and an abrupt political upheaval could well produce 
an even worse result. The only groups in Iran that are both organized 
and armed are the Islamic Revolutionary Guard Corps (IRGC) and the 
Bassij militia.
    Our first steps vis-a-vis Iran are critical, for they will set the 
tenor for the next 4 years.
    While the nuclear dispute dominates the headlines, recent history 
has shown an approach that focuses primarily on punitive measures is 
the best guarantor of hostile Iranian policies aimed at 
counterbalancing the United States. What's needed is a comprehensive 
approach that aims to build confidence, moderate Iranian policies, and 
subtly create more fertile ground for political reform in Tehran, all 
at the same time.

               I. IRANIAN POLITICAL AND NUCLEAR REALITIES

Understanding Ayatollah Khamenei
    American policymakers have often struggled to understand where and 
how power is wielded in Tehran, and for good reason. After the fall of 
the Shah in 1979, the father of the revolution, Ayatollah Khameini, 
aimed to set up the nascent Islamic Republic's power structure in a way 
that would make it impervious to foreign influence. This meant creating 
multiple power centers whose competition would provide checks and 
balances to prevent one branch or individual from becoming too powerful 
and potentially susceptible to outside influence. The result has been 
frequent political paralysis, an inability to make big decisions, and a 
tendency to muddle along with entrenched policies.
    It is within this context that Khameini's successor, Supreme Leader 
Ayatollah Ali Khamenei, governs as the most powerful individual in a 
highly factionalized, autocratic regime. Khamenei may not make national 
decisions unilaterally, but neither can any major decisions be taken 
without his consent. He rules the country by consensus rather than 
decree, with his own survival and that of the theocratic system as his 
top priorities.
    Despite the outsize attention paid to Iranian President Mahmoud 
Ahmadinejad, Khamenei's constitutional authority dwarfs that of the 
President. He controls the main levers of state, namely the judiciary, 
the military, and the media. His power base has expanded considerably 
over the last several years as the country's most important 
institutions--the elite Revolutionary Guards, Guardian Council, 
Presidency, and Parliament--are all currently led by individuals who 
were either directly appointed by Khamenei or remain unfailingly 
obsequious to him.
    A careful reading of three decades worth of Khamenei's writings and 
speeches present arguably the most accurate reflection of Iranian 
domestic and foreign policy aims and actions. They reveal a resolute 
Leader with a remarkably consistent and coherent--though highly cynical 
and conspiratorial--world view. Four themes dominate his political 
discourse--justice, independence, self-sufficiency, and Islamic piety--
and he interweaves them seamlessly: Islam embodies justice, 
independence requires self-sufficiency, and foreign powers are hostile 
to an independent, Islamic Iran. From Khamenei's perspective, Iran's 
enmity toward the United States and Israel as well as the rationale for 
its nuclear ambitions can be explained within this framework.
    Despite his hostile rhetoric, Khamenei's 20-year track record 
depicts a risk-averse figure who has courted neither confrontation nor 
accommodation with the West. His distrust of the United States is 
profound, believing strongly that U.S. opposition to Iran is not 
motivated by Tehran's external behavior--its nuclear ambitions, 
opposition toward Israel, or support for Hezbollah--but because Iran's 
strategic location and energy resources are too valuable to the United 
States to be controlled by an independent-minded Islamic government. 
Washington's ultimate goal, Khamenei believes, is to restore the 
``patron-client'' relationship with Tehran that existed under the Shah.
    In this context, whether U.S. officials announce that they wish to 
isolate Iran or have a dialogue with it, Khamenei presumes nefarious 
intentions. He holds strongly that Tehran must not compromise in the 
face of U.S. pressure or intimidation, for it would project weakness 
and encourage even greater pressure: ``If the officials of a country 
get daunted by the bullying of the arrogant powers and, as a result, 
begin to retreat from their own principles and make concessions to 
those powers, these concessions will never come to an end! First, they 
will pressure you into recognizing such and such an illegitimate 
regime, then they will force you not to call your constitution Islamic! 
They will never stop obtaining concessions from you through pressure 
and intimidation, and you will be forced to retreat from your values 
and principles step by step! Indeed, the end to U.S. pressure and 
intimidation will only come when Iranian officials announce they are 
ready to compromise Islam and their popular government of the Islamic 
Republic, and the United States may bring to power in this country 
whoever it wants!''
    Given that Khamenei perceives Washington to be hostile to the 
Islamic Republic's very existence, challenging U.S. interests has 
become an important foreign policy priority for the Iranian Government. 
This has motivated Tehran to seek out curious alliances with faraway 
countries, such as Venezuela and Belarus, and to offer support to 
groups with whom it has little in common apart from enmity toward the 
United States, such as the Sunni fundamentalist Taliban in Afghanistan 
(against whom Iran nearly went to war a decade ago).
    Based on his reading of Washington's cold war policies, Khamenei's 
primary concern with respect to the United States is not a military 
attack, but rather a political and cultural onslaught intended to 
create cleavages among the country's political elites. This onslaught 
would spread ``Western vice'' and cultural influence to undermine the 
roots of Iran's traditional society, create popular disillusionment 
with the Islamic system, and foment ethnic and sectarian unrest.
    Notwithstanding Khamenei's mistrust of the United States, the role 
of both ideology and political expediency are important to his anti-
American worldview. A conciliatory approach toward the United States 
and a nonbelligerent approach toward Israel would be parting ways with 
two of the three ideological symbols of the Islamic Republic (the other 
being the mandatory hejab for women). For Khamenei, if the Islamic 
revolution was all about momentous change, the years since have been 
about maintaining the revolutionary status quo.
    Nor is Khamenei's rationale purely ideological; his writings and 
speeches suggest he agrees with myriad Iran scholars and analysts who 
argue that if Iran were to open up to the United States, it would spur 
major cultural, political, and economic reform. Given that Khamenei's 
selection as Supreme Leader was based on his fealty to revolutionary 
ideals and the vision of Ayatollah Khameini--whose political views 
crystallized in the 1970s during the time of the Shah--the chances of 
him being willing, or able, to reinvent himself at age 69 do not appear 
strong.
Nuclear politics
    A strong consensus exists within the nonproliferation community 
that Tehran aspires for a nuclear weapons capability. What's less clear 
is the precise impetus for Iran's nuclear ambitions. Does Iran want a 
nuclear weapons capability to dominate the Middle East and threaten 
Israel? Or is Iran a misunderstood, vulnerable nation driven by a need 
to protect itself from unstable neighbors and a hostile U.S. 
Government? Or could Tehran simply moving forward with its nuclear 
program to gain leverage with the United States?
    The Iranian state limits the scope of the public nuclear debate in 
order to project an appearance of national unity. Talk of suspending 
uranium enrichment, or pursuing the development of nuclear weapons, is 
taboo. Instead, the debate permitted pits ``moderates'' who advocate 
confidence-building with the West in order to pursue a full fuel cycle 
against ``hard-liners'' who favor continuing forward without delay or 
compromise in order to present Iran's nuclear capability as a fait 
accompli. Any debates which probe the efficacy of suspending uranium 
enrichment or building a nuclear bomb happen behind closed doors, among 
a small coterie of officials.
    By all accounts Khamenei is the most influential figure in 
determining nuclear policy, and for the Leader the nuclear issue has 
come to symbolize the core themes of the revolution: The struggle for 
independence from unjust foreign powers, the necessity of self-
sufficiency, and Islam's high esteem for the sciences. He has 
consistently and unequivocally stated that while Iran is opposed to 
nuclear weapons, it has no intention of forsaking its ``inalienable'' 
right to a full fuel cycle.
    Khamenei's vision of an ideal Iran is a country that is 
scientifically and technologically advanced enough to be self-
sufficient, self-sufficient enough to be economically independent, and 
economically independent enough to be politically independent. In this 
context, he believes that the United States is not opposed to Iran's 
nuclear ambitions because of the proliferation threat, but rather 
because of the potential independence and economic leverage that Iran 
would derive from it: ``[The United States] does not want an Islamic 
and independent country to achieve scientific progress and possess 
advanced technology in the Middle East region, a region which possesses 
most of the world's oil and which is one of the most sensitive regions 
in the world. They are worried about anything that can help the 
regional nations to achieve independence, self-reliance and self-
sufficiency . . . They want Iran's energy to be always dependent on 
oil, since oil is vulnerable to the policies of world powers. They aim 
to control other nations with invisible ropes.''
    Despite U.N. Security Council resolutions, heightened sanctions, 
and military threats from the United States, Tehran's approach to the 
nuclear issue has remained defiant. According to Khamenei, this is a 
concerted strategy: ``Rights cannot be achieved by entreating. If you 
supplicate, withdraw and show flexibility, arrogant powers will make 
their threat more serious.''
    For the last several years, soaring oil prices and an 
internationally unpopular Bush administration, together with U.S. 
difficulties and Iranian leverage in Iraq, have bolstered Iran's 
nuclear position. It remains to be seen how the contraction of oil 
prices, changed dynamics in Iraq, the global economic recession, and a 
diplomatic approach by the Obama administration may alter Iran's 
nuclear calculations.

The nuclear issue and popular opinion
    As previously mentioned, Iran enjoys no open, honest debate about 
the nuclear issue. State-controlled media outlets--still the number one 
source of information for most Iranians--have been warned not to veer 
outside the framework of government-mandated talking points. The 
country's ruling elites have made a tremendous effort to appeal to 
Iranians' keen sense of nationalism, pointing out Western double 
standards, extolling the virtues of nuclear energy, and praising the 
country's scientists. Despite all of this, however, popular opinion 
regarding the nuclear issue is more nuanced than what the Iranian 
Government would like the world to believe.
    Certainly many Iranians, even those unsympathetic to the regime, 
support their country's nuclear ambitions for a variety of reasons: 
National pride; the belief that Iran needs to prepare for life after 
oil; the resentment of Western double standards which permit India, 
Pakistan, and Israel to have nuclear programs; and the perception that 
because Iran lives in a dangerous neighborhood, it needs not only a 
nuclear energy program but also a nuclear weapon.
    What's questionable is how deep, informed, and widespread Iranian 
popular support for the nuclear program is. As the former Economist 
correspondent in Tehran best put it: ``It would be quite remarkable if 
a populace increasingly disengaged from politics were suddenly 
energized by something as arcane as nuclear fuel and its byproducts . . 
. For most Iranians, the price of food and the government's failure to 
lower it are more important [than the nuclear program].''
    Some among Iran's political elite have conceded that nuclear pride 
has been manufactured by the government. In the words of Mohammed 
Atrianfar, a close adviser to former President Hashemi Rafsanjani: 
``People have been hearing these things about having the right to have 
or to possess this [nuclear] capability. And, naturally, if you ask an 
Iranian whether [they] want this right or not, they would say they do 
want it. But if you ask, though, `What is nuclear energy?' they might 
not be able to tell you what it is.''
    After suffering 500,000 casualties in the horrendous war with 
Saddam Hussein's Iraq, few Iranians romanticize the idea of conflict or 
militarization. In a strikingly candid opinion piece in the Financial 
Times, former Iranian Deputy Foreign Minister, Abbas Maleki, dismissed 
the notion that the nuclear program is driven by popular demand: 
``Reports suggest that Tehran's official joy over the nuclear 
breakthrough is shared by a large segment of Iranian society. Such 
reports should not be taken as evidence that the Iranian people share 
their government's views, and should not be used as a pretext for using 
force against Iran's population . . . The general public does not 
consider the nuclear issue to be of vital importance. Nuclear 
technology will do little for the average Iranian; it cannot create 
more jobs for a country that needs 1 million jobs annually, it cannot 
change the chronic low efficiency, productivity, and effectiveness of 
the economy and management, and it will do nothing to improve Iran's 
commercial ties with the rest of the world.''
    Public opinion is clearly an important component of Tehran's 
nuclear strategy, and the government is capable of mobilizing large 
crowds in order to project an appearance of national unity. Up until 
now, popular opposition to the government's nuclear posture has been 
negligible. This will likely remain the case as long as Iranians 
continue to perceive corruption and mismanagement--not an isolation-
inducing foreign policy--to be the primary cause of domestic economic 
malaise. If and when domestic economic conditions deteriorate to such a 
degree that has a drastic impact on people's daily lives, however, 
Ayatollah Khamenei may well decide to change course. When push comes to 
shove the paramount concern of the country's theocratic elite is the 
regime's survival, not its ideology.

                        II. U.S. POLICY OPTIONS

    While the primary focus of today's hearings is Iran's nuclear 
ambitions, it is important to understand that the nuclear issue is a 
symptom of the deep mistrust between Washington and Tehran, not the 
underlying cause of tension. Given that neither side trusts the other's 
intentions, there are no technical solutions to this nuclear dispute, 
only political ones. If a resolution is to be found, it will require a 
broader diplomatic accommodation between Washington and Tehran, whereby 
the United States reaches a modus vivendi with Iran, and Tehran ceases 
its hostile approach toward Israel.
    Before any substantive discussions or negotiations take place, an 
initial meeting--held in private--simply reacquainting the U.S. 
Government with the Iranian Government is in order. Washington should 
make it clear to Tehran that the United States is genuinely interested 
in establishing a new tone and context for the relationship. To 
increase the likelihood of success in engaging with Iran, the Obama 
administration should adhere to seven prescriptions in framing a 
process of engagement. I briefly examine each, below.
1. Build confidence on issues of common interest
    Once serious discussions commence, building confidence with Iran 
will be easier if efforts initially concentrate on areas of shared 
interest, such as Afghanistan and Iraq, rather than those of little or 
no common interest, such as the Israeli-Palestinian conflict and the 
nuclear issue. Constructive discussions in Kabul and Baghdad could have 
a positive spillover on the nuclear dispute. If Iran's nuclear 
ambitions do indeed reflect a sense of insecurity vis-a-vis the United 
States, building cooperation and goodwill in Iraq and Afghanistan could 
help to allay Tehran's threat perception and compel its leaders to 
reassess their nuclear approach.
2. Focus on Khamenei, not Ahmadinejad
    Successful engagement with Iran will require a direct channel of 
communication with the Supreme Leader's office, such as former-Foreign 
Minister Ali Akbar Velayati, one of Khamenei's chief foreign policy 
advisers. Khamenei must be convinced that Washington is prepared to 
recognize the legitimacy of the Islamic Republic and must be disabused 
of his conviction that U.S. policy aims to bring about regime change, 
not negotiate behavior change. He will never agree to any arrangement 
in which Iran is expected to publicly retreat or admit defeat; nor can 
he be forced to compromise through pressure alone. Besides the issue of 
saving face, he believes deeply that compromise in the face of pressure 
is counterproductive, because it projects weakness and only encourages 
greater pressure.
    After three decades of being immersed in a ``death to America'' 
culture, it may not be possible for Khamenei to reorient himself. But 
if there's one thing that is tried and true, it's that an engagement 
approach toward Iran that aims to ignore, bypass, or undermine Khamenei 
is guaranteed to fail.
3. Begin cautiously
    Notwithstanding private, introductory discussions, as well as 
ambassadorial-level meetings in Kabul and Baghdad, we should refrain 
from making any grand overtures to Tehran that could redeem Mahmoud 
Ahmadinejad's leadership style and increase his popularity ahead of the 
country's June 2009 Presidential elections. Since assuming office in 
August 2005, Ahmadinejad has used his influence to amplify 
objectionable Iranian foreign practices while curtailing domestic 
political and social freedoms and flagrantly disregarding human rights; 
his continued presence could serve as an insurmountable obstacle to 
confidence building with the United States.
    Though they are not totally free or fair, Iranian elections are 
notoriously unpredictable. Just as Ahmadinejad's 2005 election shocked 
seasoned observers, given his considerable mismanagement of the 
economy, his defeat in 2009 is certainly a possibility. As such, it is 
better for Washington to begin cautiously until Iran's domestic 
situation becomes clearer.
    Such an approach should not, and need not, be interpreted by Tehran 
as a U.S. effort to ``game'' Iran's Presidential elections. To be 
clear, Washington should refrain from commenting on the Iranian 
campaign, and should certainly refrain from expressing a preference for 
any particular candidate.
4. Speak softly
    While threatening violence against Iran has become a way for U.S. 
politicians to appear tough on national security, such rhetoric has 
empowered Tehran's hard-liners and enhanced Iran's stature on the 
streets of Cairo, Ramallah, and Jakarta as the Muslim world's only 
brave, anti-imperialist nation that speaks truth to power. 
Additionally, when oil prices jump with each threat against Iran, 
Iran's nuclear program and its financial patronage of Hezbollah and 
Hamas become more affordable.
    While the Iranian Government is certainly complicit in engaging in 
bellicose rhetoric, the United States should not take its behavioral 
cues from an insecure, repressive, and undemocratic regime. Instead of 
reciprocating threats and name calling, the Obama administration should 
project the dignity and poise of a superpower. A hostile rhetorical 
line allows Iran's leadership to paint the United States as an 
aggressor--both internationally and domestically.
5. Don't let the spoilers set the tenor
    Small but powerful cliques--both within Iran and among Iran's Arab 
allies--have entrenched economic and political interests in preventing 
United States-Iranian reconciliation. Within Iran these actors--
including powerful septuagenarian clergymen and nouveau riche 
Revolutionary Guardsmen--recognize that improved ties with Washington 
would induce political and economic reforms and competition and 
undermine the quasi-monopolies they enjoy in isolation. Among Iran's 
Arab allies such as Hezbollah and Hamas, the prospect of United States-
Iranian accommodation could mean an end to their primary source of 
funding.
    For this reason, when and if a serious dialogue commences, the 
spoilers will likely attempt to torpedo it. Their tactics will vary. 
They may commit gratuitous human rights abuses (such as the recent 
imprisonment of my friend Roxana Saberi, an Iranian-American 
journalist), issue belligerent rhetoric, or target U.S. soldiers and 
interests in Iraq or Afghanistan. Though staying the course in tough 
diplomacy with Iran will require heavy expenditures of both personal 
leadership and political capital, if Washington pulls back from 
confidence-building with Tehran in retaliation for an egregious act 
committed by the spoilers, they will have achieved their goal.
6. Maintain an international approach
    Tehran is highly adept at identifying and exploiting rifts in the 
international community, and diplomatic efforts to check Iran's nuclear 
ambitions will unravel if key countries approach Iran with competing 
redlines. A common approach by the European Union and the United States 
is absolutely imperative.
    Uniting China and Russia behind the U.S. position will prove more 
difficult given divergent national interests, though Moscow certainly 
has an interest in avoiding a nuclear-armed Iran within missile range. 
A more robust U.S. effort at direct dialogue with Tehran will send the 
signal to Brussels, Moscow, and Beijing that Washington is serious 
about reaching a diplomatic resolution to this dispute, which should 
strengthen the health of the coalition.
7. Be Discreet
    When it comes to United States-Iranian interaction, the record 
shows that ``secret'' or ``private'' discussions out of public earshot 
have a greater success rate. Building confidence in the public realm 
will be difficult, as politicians on both sides will likely feel the 
need to use harsh rhetoric to maintain appearances. Moreover, the 
likelihood that spoilers can torpedo the process either through words 
or actions is more limited if they do not know what is going on.
    Recognizing that its regional influence derives in large measure 
from its defiance of the United States, Iran would likely prefer not to 
publicly advertise its discussions with the United States unless or 
until real progress has been made. Discreet discussions are also a more 
effective forum for Washington to raise concerns over Iranian human 
rights abuses, as public criticism has done little to improve Iran' 
record over the last three decades.

                         III. WHAT'S REALISTIC?

    Given three decades of compounded mistrust and ill will, the 
results of any process of United States-Iran engagement will not be 
quick, and antagonism will not melt away after one, two, or perhaps 
even many meetings. While the initial pace will likely be painfully 
slow--as each side assesses whether the other truly has good 
intentions--no realistic alternative would serve U.S. national security 
imperatives on issues ranging from Iraq, Afghanistan, nuclear 
proliferation, energy security, and terrorism.
    Mindful of the potentially enormous implications that a changed 
relationship with Washington would have for the Islamic Republic's 
future, however, there are a variety of reasons why even a sincere, 
sustained U.S. attempt at dialogue may not initially bear fruit:

  <bullet> Historically, the Islamic Republic has tended to make 
        difficult decisions only under duress. Iran's overconfident 
        hard-liners may not currently feel compelled to make any 
        compromises;
  <bullet> Paralyzed by the competing ambitions of various factions and 
        institutions, the Islamic Republic may prove incapable of 
        reaching an internal consensus, falling back on long-entrenched 
        policies;
  <bullet> If it remains unconvinced of U.S. intentions, the Iranian 
        regime may shun increased ties with Washington, believing the 
        overture to be a Trojan horse for a counterrevolution;
  <bullet> Fearful of the unpredictable domestic change which an 
        opening with the United States might catalyze, Iran's 
        leadership may well perceive reconciliation with Washington as 
        an existential threat.

    None of these, however, are arguments against engagement. On the 
contrary, an outright rejection of a U.S. overture would prove costly 
for Iran's leadership. Behind the scenes, a sizable portion of the 
country's political and military elite recognizes that the ``death to 
America'' culture of 1979 is obsolete today. Together with Iran's 
disillusioned population, they know the country will never be able to 
fulfill its enormous potential as long as its relationship with the 
United States remains adversarial.
    During the Bush administration, many Iranians came to believe it 
was the United States, not Iran, which opposed an improvement in 
relations. When and if it becomes evident that a small clique of hard-
liners in Tehran is the chief impediment, internal political and 
popular opposition could build and potentially large, unpredictable 
cleavages could be created within the Iranian political system. In 
essence, the Obama administration may well face the unique challenge of 
simultaneously creating unity in the United States and divisions in 
Iran.

    The Chairman. Thank you very much, Mr. Sadjadpour. It was 
very interesting testimony. I know there'll be considerable 
followup.
    Ambassador Wisner, I should introduce you, probably, as 
Ambassador to Everywhere. [Laughter.]
    You've had about as many ambassadorships as anybody I know.

STATEMENT OF HON. FRANK G. WISNER II, FORMER U.S. AMBASSADOR TO 
    ZAMBIA, EGYPT, THE PHILIPPINES, AND INDIA, NEW YORK, NY

    Ambassador Wisner. Mr. Chairman, Senator Lugar, gentlemen, 
I'm, as my colleagues on the dais are here today, extremely 
pleased to return to the committee and have a chance to engage 
with you on this extraordinarily important subject.
    Like my colleagues, I, too, will enter my written testimony 
for the record and give you, instead, a brief summary of the 
principal points I made, and address, in addition, the nuclear 
issue and its effect on the region and the international 
community, the principal focus of your hearing.
    I'm going to start, however, roughly in the same direction 
that Karim Sadjadpour just undertook to provide a political 
context, for if we do not figure out exactly where we are and 
where we're headed, then engaging on the nuclear question is a 
much more complicated exercise.
    So, first, let me open with a core contention. Senator 
Kerry, it matches your opening remarks. And that is, Iran is 
important, Iran is dangerous, Iran is urgent, and we have no 
choice but to deal with Iran, despite the negatives, for Iran 
is vitally important to the region, it touches on every issue 
that we face in the Middle East, and every interest of every 
one of our friends and allies. In short, if we're to make any 
progress with the questions we face in Iraq, Afghanistan, over 
the nuclear question, energy issues, Israel, Palestine, we have 
to be able to take Iran into account and deal with it.
    I reached that conclusion over a decade ago, when I was 
sent to deal with the Russians on the question of nuclear 
technology flight to Iran. I haven't budged for a moment since. 
Engaging Iran diplomatically--not just plain talking, but 
engaging and finding grounds for negotiations--is a political 
imperative.
    The second point I would make is similar, as well, to my 
colleagues', and that is, I do not believe in a military 
option. I have grave questions about its utility in the nuclear 
case, and, I believe, in all the other issues that we would 
face--we face with Iran, there is no room for a military 
response. In fact, the opposite is true. The engagement on the 
military--on a military option with Iran would set us back, not 
only with Iran and our ability to make progress on the many 
issues with which we need traction, but beyond Iran, throughout 
the Muslim world.
    My third point is that I am a relative optimist about the 
possibility of political engagement with Iran, including on the 
nuclear issue. I don't limit my remarks to my sense of the 
situation to recent signals received from the leadership in 
Tehran or other Iranian diplomatic representatives, nor do I 
limit myself to the generally favorable reaction our new 
President has had when he--after his advent in his White House, 
throughout the region.
    I look more closely at the enormous vulnerabilities that 
Iran has today: Her political isolation, the weakness of her 
economy, her internal political divisions. But, I look further 
than that, at the long traditions of Iranian statecraft, which 
are based on realism, a sense that Iran has got to survive in a 
very difficult world, and that Iran is a nation that must 
manage its national security, and that is its overwhelming 
imperative.
    It's those issues, the issues of national survival, that 
are first and foremost on Iran's mind. And that gives me some 
hope that we can get traction if we choose to engage, and 
engage fully. But, I won't pretend, for a moment, that dealing 
with the Iranians will not be extremely tough. There will be 
many setbacks, many deceptions. Iran is a tough adversary 
across any negotiating table.
    My fifth point is that I personally welcome, as I'm certain 
all of us do, the appointment of a new special representative 
to take a hard look at Iran and our foreign policy, Dennis 
Ross, a man with great experience in the region, an expert in 
the field of statecraft. And I can only wish him well.
    But, as we approach the question of engagement with Iran, I 
think there are some questions we've got to keep in mind, so 
let me add a few thoughts to the list my colleagues have 
already outlined.
    I believe that you cannot pick and choose issues with the 
Iranians. And I include the nuclear issue. If you try to take 
one issue out of the cherry pie, you will not succeed in 
addressing it. We must have a global approach to the questions 
we deal with Iran. All are related to Iranian perceptions of 
national dignity and national security.
    Second, I believe that it is vitally important to get the 
political context right, at the top. If you don't have the 
Ayatollah, the Supreme Leader, engaged with the President of 
the United States, an agreement on what constitutes the terrain 
of engagement, you won't be able to engage on any single issue, 
including the nuclear issue.
    In short--and I cite it in my testimony the example of 
President Nixon and Chairman Mao--if you don't have an 
understanding, at the top, of what constitutes an acceptable 
political engagement, you cannot pick apart the issues and be 
able to sustain a negotiation.
    The third point I'd make is, it's a long ways from here to 
where we need to end up with Iran. The outcome, at the end of 
the day, is full restoration of diplomatic relations, but there 
are many steps along that way. They could start, literally, 
very shortly, Senator Kerry, with our diplomats being able to 
speak to Iranians around the world. That's now not possible. It 
can go beyond, to very careful reconsideration of the 
commitments we made in Algiers in 1981, not to interfere in 
Iran's internal affairs. We could deal with the dangers we face 
every day in the gulf, where our Navy and Iranian ships come 
uncomfortably close to one another, air flights between the 
United States, Iran, cooperation on mutual issues, like 
narcotics, diplomatic travel--all--all, in my judgment, ways on 
a way station to build both confidence and create an 
environment in which we can deal with the tough questions, 
including the nuclear one.
    I further advise great caution in coming close to any 
question related to Iranian domestic politics. I do not believe 
our pretensions to regime change have done anything but set the 
prospect of diplomacy back and created enormous complexities. 
It shows us, in fact, doubling back on our own word that we 
struck in 1981.
    But, I don't recommend we make any apologies, either. We 
don't need to apologize for our past history, and Iran has 
every reason to stay in the bounds of propriety in speaking 
about us.
    We need not try to figure out who's going to be on top in 
Iran. Our job is to deal with Iran as a nation. It is not a 
problem, or a cluster of problems, a nation, a country with 
major regional influence, a nation with which the United States 
must come to terms.
    I, finally, believe that it is vitally important we broaden 
our diplomacy. If we engage Iran, we can't do it alone. We've 
got to be prepared to sit down and do business with Syria, with 
the Palestinians, with the range of interests we face elsewhere 
in the Middle East. We also have to take into account the 
extraordinary sensitivities of those we are close to in the 
region, the Sunni Arabs, Israel, that rightly feels disobliged 
by the threats that Iran has sent, our European allies, the 
Russians, the Chinese, Japan. Their interests, in each case, 
are at play. There is no way we can proceed in any engagement 
with Iran without great transparency, without making it clear 
where we're headed and how we're going to go about it. Tactics 
are a different matter. We can engage in timing and in our 
meetings on grounds of secrecy, but strategic transparency is 
vital.
    So, let me turn, then, with a couple of thoughts on the 
nuclear question. I warn, however, in addressing it, not to 
look at it in isolation, for it is not one issue between the 
United States and Iran, but part of the whole, and has to be 
dealt with in a context. But, it is so vitally important. 
However old and however longstanding the Iranian program is--
and yes, it goes back to the time of the Shah--and however worn 
the Iranian arguments of legality, the Iranian nuclear 
pretensions are inherently destabilizing. There is so little 
trust between Iran and ourselves and the region that one can 
look at it in no other way.
    No nation in the region is unaffected by what Iran has 
attempted to do with its nuclear capability. And as we think 
about the NPT regime, a breakout by Iran is truly worrying. As 
Henry Kissinger is wont to argue, if you think of Russia in the 
old days, and the United States, and then China, Russia, and 
the United States, and then Europeans, and now India and 
Pakistan, how many miscalculations each time you increase the 
circle of nuclear weapons-holders can we face without a severe 
nuclear problem occurring?
    So, I would prefer, like everyone, not to have a nuclear 
Iran, but I also believe, as we approach it and try to contain 
the Iranian issue, we must not break ranks with the Europeans 
or our Security Council partners, the Russians and the Chinese. 
Getting together and having common points are going to--is 
going to be very tough, and it will, by necessity, mean we'll 
have to water down the lines we use.
    Sanctions, of course, have their place. Trade controls, 
financial controls set a standard of concern about how we see 
the nuclear issue. But, I think, like each one of you, I sense 
we need a new approach, a different way of looking at the 
issue. We need to be talking to the Iranians, more than the 
one-off appearance of Bill Burns under the previous 
administration. We need to be sustained. We have to deal with 
the Iranians within the strategic situation that they face.
    And that means we're going to have to manage our 
relationships with our friends in the region very carefully, 
including defensive measures. We have to think about enhancing 
antimissile systems among our Arab friends. We have to think of 
security guarantees. We're going to even have to think about 
ways--special ways we can deal with Israel's well-founded 
concerns.
    But, in the end, I've come, in my own mind, to a question 
that troubles me, but has to be on the table, and that is Iran, 
for reasons of its own, both reasons of pride and national 
security, is determined to produce a nuclear weapons 
capability, and it is not going to be dissuaded in any easy 
manner.
    I, therefore, have come to believe that the line of 
argument Ambassador Luers and Ambassador Pickering advanced in 
the New York Review of Books several weeks ago, of arguing that 
we, in the end, have to accept a degree of Iranian uranium 
enrichment inside of Iran, under international ownership and 
supervision, intense IAEA scrutiny, is a line of approach that 
is worth pursuing.
    Finally, gentlemen, let me close by noting that I believe 
it's not only the nuclear issue that drives us to conclude to 
engage with Iran. We've put off the question of dealing with 
Iran for much too long, and the stakes have gone up. The 
miscalculations that could occur, the possibility of violent 
confrontation, and the opportunities lost by not engaging, the 
costs are simply too high.
    We need a political engagement, and we need one that keeps 
the international community alive to the fact that the United 
States is capable of conducting diplomacy.
    And search--search, as Iranians are beginning to hint these 
days, for common ground. Don't know if we'll find it.
    We won't get there easily, but we have to try.
    Thank you.
    [The prepared statement of Ambassador Wisner follows:]

 Prepared Statement of Hon. Frank G. Wisner, Former U.S. Ambassador to 
        Zambia, Egypt, the Philippines, and India, New York, NY

    No issue on our national security agenda is more urgent nor more 
fraught with danger than the United States deeply troubled and 
potentially violent relationship with the Islamic Republic of Iran.
    The crisis between the United States and Iran is longstanding. For 
better than the past quarter century, we and the Islamic Republic have 
been at odds. From the early days of the Iranian revolution, that 
government's assertion of a radical Islamic identity and its 
determination to reassert. Iran's national standing and influence have 
given the United States, Iran's neighbors, and many others around the 
world cause for grave concern.
    In recent years, Iran's actions, and its position on questions 
which go to the heart of the stability of the Middle East, have 
continued to stoke suspicions and tensions. Since 2005, Iran's decision 
to proceed with a nuclear enrichment program has been of special 
concern to the United States and the international community. Iran has 
been largely deaf to entrities from the Security Council and 
governments around the world. Iran is endowed today with 5,000 
centrifuges and is moving toward the capability to produce nuclear 
weapons. It has failed to satisfy world opinion that its nuclear 
intentions are benign.
    Iran's espousal of Hezbollah and Hamas is a direct threat to 
Israel's security; the atmosphere between Israel and Iran has been 
further embittered by the Islamic Republic's questioning of Israel's 
right to exist and its President's denial of the Holocaust. All of us 
recall how close the region came to all out warfare as a result of the 
summer war in Lebanon. Iran's ties to Hezbollah and Syria played an 
important part. In a word, Iran and Israel stand virtually with daggers 
drawn.
    The United States stands today. in dangerous proximity to Iran. Our 
ships sail near Iran's coast and incidents on the high seas between the 
two of us are always a possibility. Given tensions in the gulf, 
conflict resulting from an incident could spread rapidly and endanger 
international shipping and especially the export of the region's 
hydrocarbons. Our soldiers are stationed on Iran's borders in Iraq and 
Afghanistan. Iranians have often been associated with actions which 
endanger American forces. The airwaves are filled with charges and 
countercharges of subversion and interference. In a word, we are too 
close to one another for comfort, especially since there are no 
adequate mechanisms for managing misunderstandings and incidents.
    At the same time, we have come to realize that without Iran there 
is no way to address the most important issues the United States faces 
in the Middle East. As the region's largest state, Iran plays a key 
role in Iraq, Afghanistan, in regional energy markets, in the security 
of the gulf, in the question of nonproliferation and in the 
confrontation between Israel and the Palestinians. Iran's relationship 
with the Palestinians, Shiite communities in the Middle East, with 
Syria and its reach into the Arab nations of the gulf make Iran a truly 
important force in virtually every state and every issue in the Middle 
East. In fact, the questions which join the United States and the 
Islamic Republic of Iran are so broad and so interconnected that 
addressing them singly is not possible.
    At the same time, I am convinced that the use of force will not 
solve any of the issues in contention between the United States and the 
Islamic Republic of Iran. Specifically, I believe that military strikes 
against Iran's nuclear facilities would be the height of folly. I am 
unpersuaded a military strike would be decisive and the damage to our 
interests in Iraq, Afghanistan and the gulf would be huge. The effect 
on United States standing in the Muslim world would be massive, wiping 
out the goodwill our new administration has generated. Our ability to 
deal across the board with Iran would be fatally compromised.
    I arrive at these conclusions, having followed closely the 
situation in Iran and the history of our ties to Iran, since the fall 
of the Shah. I was never privileged to serve in Iran during my 37 years 
as a diplomat and representative of the United States. But I lived and 
worked in the Middle East and I was persuaded throughout my career than 
Iran was central to the calculation of our interests in the region.
    How important Iran is to the United States came home directly to me 
in 1997 when I was asked to discuss with the Russian Government the 
flow of missile technology from the Russian Federation to Iran. It 
became clear to me that there was no way to stop Iran from seeking 
missile technology unless we could address Iranian national security 
concerns and this would have meant dealing directly with the Iranian 
Government. Talking with Russia alone was not sufficient and threats 
and sanctions did not and could not contain Iran's determination to arm 
itself and deter the threats it believed it faced.
    In meeting with your committee today, I do not bring to the table 
privileged information, based on official intelligence. My sources are 
different. I have met frequently with Iranians, including members of 
the Iranian Government over the past 10 years. I have followed the 
literature and worked with institutions like the UNA-USA, the 
Rockefeller Brothers Fund, and the Asia Society which have organized 
exchanges with Iranian officials and private citizens. The views I 
express at this hearing are entirely my own.
    In the course of my remarks, I will make a case for engagement with 
the Islamic Republic of Iran. I will outline points we should consider 
in the weeks and months ahead as the United States shapes its 
diplomacy. As difficult as our recent history with Iran has been, I 
believe we and Iran are fated to engage one another and that engagement 
will begin in the next year or so. I am an optimist, even though I 
recognize we and Iran have been estranged, frequently bitterly so. 
Unlike other crises in which nations and peoples are divided on grounds 
of principle, faith, or ethnicity or assert overlapping claims to 
territory, our differences with Iran are largely political and can be 
addressed and resolved by political leaders.
    In this regard, I welcome the decision of Secretary Clinton to 
appoint Dennis Ross as her adviser for West Asia. Mr. Ross will bring 
to his duties and the question of Iran, years of experience in the 
region. He is a man of deep intellect, an accomplished diplomat and one 
of the leading experts of his generation on the practice of foreign 
policy and statecraft.

                          A WORD OF BACKGROUND

    Many have argued in recent years that Iran has an upper hand when 
it comes to dealing with the United States in the Middle East. Iranians 
know we are bogged down in difficult conflicts in Iraq and Afghanistan. 
Those who hold this view further argue that by destroying Saddam and 
ejecting the Taliban from Afghanistan, we have strengthened Iran 
immeasurably. Their argument runs that we have failed to force Iran to 
abandon its nuclear ambitions and our failure to move Iran has 
emboldened Iran's leaders to defy the United States. The ground is not 
favorable, therefore, to diplomatic engagement, they assert.
    I do not agree with this contention. In fact, I believe we and the 
Iranians approach each other with a mutual sense of vulnerability. No 
nation is more sensitive to its weaknesses than is Iran. Iran knows 
that it is isolated in its region and many of its neighbors are 
hostile. Internationally, Iran enjoys very little support. Iran's 
religious expression, Shiite Islam, is a minority faith and it survives 
in the Muslim world more by sufferance and accommodation than 
confrontation.
    Iranians know their economy is weak and the current downturn in 
petroleum prices has left Iran vulnerable. GDP has shrunk; deficits 
have ballooned; unemployment runs high and inflation is rampant. 
Iranian politics are deeply contentious. While few Iranians contest the 
legitimacy of their Islamic Republic, many have doubts about their 
cleric's ability to lead a modern nation-state.
    All Iranians recognize Iran's body politic is riven with factions. 
In addition, Iranians look at their history with pessimism. For the 
past 200 years, they believe Iran has been a victim of foreign 
interference; Iran, they feel, has been humiliated. Iranians also know 
they would pay a terrible price if the Islamic Republic and the United 
States were ever to go to war. The memories of Iran's huge losses on 
the battlefields with Iraq are painfully fresh in Iranian minds.
    As we set out to engage Iran, it is essential to keep a core 
thought in mind: Iranians will not be humiliated. But Iranians are also 
realists. Iran is not only a great nation, borne of an ancient 
civilization; it is a proud one. Although Iranians espouse their 
religious faith with passion, I believe their leaders have long set 
aside pretentions to champion a Shiite revolutionary ideology. Of 
course, the majority of Iranians care about the fate of their 
coreligionists but they are more intent in seeing their nation 
recognized for its many accomplishments. They believe that they live in 
a hostile world and they must be able to defend themselves or deter 
their opponents. Iran wants its influence in the region restored in 
large part because a strong and respected Iran will be a secure Iran. 
Part of the reason for the hold of the Islamic Republic over Iranian 
opinion has been its ability to identify itself with the cause of 
Iranian national security and Iranian national dignity.
    At the same time, Iran recognizes facts and among those facts is 
the United States. Whatever language they choose in public, Iran's 
leaders know that the United States is a power in the Middle East and 
that Iran and the United States must, one day, come to terms with one 
another. In recent weeks, spokesmen for the Islamic Republic have begun 
to say it is in Iran's interest that her government and the United 
States look for common ground and seek to manage disagreements. This 
disposition reinforces my view that there is promise in engaging Iran 
and moving soon to find a basis for pursuing diplomacy. Bluntly put, 
Iran has reacted well to the advent of the Obama administration.
    But I argue that we must be realistic and cautious. There will be 
no rapid breakthroughs with Iran. Reaching understandings will take 
years and will be plagued with setbacks. Statecraft, as defined by 
Iranians, places great store on careful calculation and caution. It 
also recognizes the imperatives of power. No Iranian will approach a 
negotiation if he believes that he is playing a weak hand. In addition, 
the history of our relationship is such that Iran's leaders will not 
take us at our word anymore than we will take Iran's word at face 
value. Iran's leaders hold deeply to the view that the United States is 
committed to ``regime change.'' That attitude runs as deep in Iran as 
do our suspicions of Iran's nuclear ambitions. There is little 
confidence between the United States and Iran. Overcoming the divide 
will not occur easily nor quickly; neither can force the other to 
accept its point of view. Neither we nor Iran will accept promises; 
both of us will require facts.

                             HOW TO PROCEED

    In the proceeding paragraphs, I have attempted to set the stage for 
the conduct of diplomaty. Engagement with Iran, as with any power, is a 
means to an end--not an end in itself. We have to be clear about what 
we want to achieve before we engage our diplomacy and, for the moment, 
our objectives have not been defined. I hope that the deliberations of 
this committee will contribute to a definition of objectives. As a 
contribution to your debate, let me advance the following thoughts.

  <bullet> Be prepared to address all issues. A diplomatic engagement 
        with Iran will fail if we attempt to ``cherry pick'' the 
        issues. The problems we and Iran face are numerous and they are 
        interconnected. The Iranian side attaches special importance to 
        national security and national honor. We and Iran cannot 
        address Iraq without considering the gulf; it is not possible 
        to deal with the nuclear question without coming to grips with 
        Iran's conception of its security environment: In addition, the 
        past quarter century is littered with cases of single issue 
        engagements with Iran. Each time we and Iran have tried to 
        close on one problem, we have found that its resolution led to 
        a dead-end and did not contribute to the resolution of other 
        issues. The reason is simple--we and Iran have not agreed on a 
        political context.
  <bullet> Top down; not bottom up. The only way to engage Iran is to 
        begin with a political understanding between our leaders. That 
        understanding must be based on a mutual recognition that the 
        United States has legitimate interests in the Middle East and 
        that Iran is a regional power with its own national interests. 
        ``Live and let live'' is key to a political understanding with 
        Iran. We must set aside pretensions to regime change. We and 
        Iran can operate on the basis of different principals and still 
        respect one another. Debates over human rights and democracy, 
        for example, can take place without either side questioning the 
        other's legitimacy. If we need an example of ``top down'' 
        diplomacy, we have only to look at President Nixon's and 
        Chairman Mao's decision to engage. Once the two leaders had 
        reached a basic understanding of the principals which would 
        guide relations between our two countries, our diplomats were 
        able to address the specific questions which divided us. That 
        example should be instructive in the case of Iran. To launch 
        successful diplomacy our President and Iran's Supreme Leader 
        must ``shake hands'' and, in doing so, create a political 
        context for our engagement.
  <bullet> Building confidence. Engaging Iran will require constant 
        attention to the issue of confidence. We do not trust each 
        other; we will only deal with facts. This said, words matter. 
        Removing regime change from our vocabulary and our legislation 
        is a good signal; the Iranians should drop offensive language 
        they use in our regard. We should return to the principle we 
        negotiated in Algiers in 1981 when we agreed that the United 
        States would not interfere in Iran's internal affairs. In the 
        Algiers Accord, we also agreed to address questions which 
        divided us. Financial claims are an example but one could add 
        to it direct air flights, restrictions on diplomatic travel, 
        counternarcotics cooperation and confidence-building contacts 
        between naval forces in the gulf. Reviving the Algiers Accord 
        would also provide for expanded cultural, educational, and 
        scientific exchanges. As we proceed in our engagement with 
        Iran, there will be reason to establish an interests section. 
        At the end of the day, diplomatic relations must be restored. 
        In the immediate future, we should drop restrictions on 
        contacts between American diplomats and representatives of the 
        Islamic Republic.
  <bullet> Avoid domestic politics. Some argue that the United States 
        should not seek to negotiate with Iran before it holds its 
        Presidential election. I disagree. Putting the question in 
        these terms implies that we have favorites in Iran's political 
        race. Our interests lie in dealing with the government and 
        nation of Iran; Iranians will pick their leaders. I recommend 
        that we begin without delay to design a policy of engagement 
        with Iran and explain it to our friends and allies; that we 
        send the appropriate signals and make the necessary contacts to 
        begin talking without regard to the timing of the Iranian 
        Presidential contest. In all likelihood, by the time needed to 
        prepare our diplomacy, Iran's election and the runoff will have 
        taken place.
  <bullet> Setting objectives. As a matter of priority, we need to 
        decide how to approach the nuclear issue, Iraq and. 
        Afghanistan. With regard to nuclear enrichment a fresh 
        examination of our objective is in order. It is not possible to 
        eliminate Iran's program: Since 2005 we have made no progress 
        in convincing Iran to give up its program. Unilateral and 
        multilateral sanctions have been painful to Iran but 
        insufficient to force a change of policy. Instead, Iran every 
        day moves closer to developing a nuclear weapons capability. 
        Trying to force Iran to forgo enrichment is, to my way of 
        thinking, a losing proposition and we are not likely to secure 
        strong international support. Neither Russia nor China have 
        their hearts in further sanctions.
  <bullet> Iran attaches great importance to its nuclear program for 
        reasons of national prestige, economics, and national security. 
        If it is nothing else, the program is highly popular. If we are 
        to stop Iran from crossing the weapons threshold, we have to 
        move quickly. I am persuaded by the arguments advanced recently 
        in the New York Review of Books by former Ambassadors Luers and 
        Pickering and Jim Walsh that we should attempt to convince Iran 
        to accept the international supervision and ownership of 
        nuclear enrichment facilities, even if they are located on 
        Iranian soil. The way to start would be an agreement to suspend 
        sanctions on our part and a suspension of enrichment on Iran's 
        part.
  <bullet> Similarly in Iraq and Afghanistan, we need to advance Iran's 
        interest in stability along its borders. Iran wants the al-
        Maliki regime in Iraq to succeed but it recognizes the need for 
        reconciliation among Iraq's ethnic and religious groups. In 
        Afghanistan, a return of the Taliban to Kabul is inimical to 
        Iranian interests, a disposition we can harness to our 
        advantage. In fact, Tehran today is sending signals it wishes 
        to discuss Afghanistan. For openers, we must make it clear the 
        United States seeks no permanent base for its forces in either 
        country.
  <bullet> Involving other nations. A negotiation with the Islamic 
        Republic is not simply about the United States and Iran. The 
        interests of Israel, the Sunni Arabs, our European allies and 
        Russia and China are in play. It is essential that we explain 
        carefully to them what we intend to achieve with Iran and how 
        we intend to go about it before we engage the Iranians. If we 
        fail to make ourselves clear, we will lose the important 
        international support we require to conduct a sustainable 
        relationship with Iran as well as sustain confidence in 
        cooperation with the United States as we pursue other regional 
        and international goals. In a word, we must never allow Israel 
        nor the neighboring Arab States to believe we are prepared to 
        negotiate with Iran behind their backs.

    Americans have put off decisions about Iran for too long. But the 
stakes have gone up sharply in recent years and the risks of 
miscalculation and therefore violence are too great. We have learned 
that sanctions and threats will not move Iran nor will we be able to 
carry the international community if our policies do not provide for 
political engagement with Iran. Most of all, the past quarter century 
should have taught us that we cannot impose our will on Iran. We can 
only work to find common ground based on a mutuality of respect and 
interests. I hope that these hearings will contribute to an early and 
sustained engagement with Iran. Only then will we know if that common 
ground exists.

    The Chairman. Thank you, Ambassador.
    Ambassador Haass.

   STATEMENT OF HON. RICHARD N. HAASS, PRESIDENT, COUNCIL ON 
                FOREIGN RELATIONS, NEW YORK, NY

    Ambassador Haass. Thank you, Mr. Chairman. And thank you 
for inviting me before the Senate Foreign Relations Committee 
today. I realize, 35 years ago, it was here that I had my first 
job beyond the corner drugstore and Baskin-Robbins. So, it's 
good to be back.
    The Chairman. Welcome back. We've still got a few openings. 
[Laughter.]
    Ambassador Haass. What I thought I'd focus on in my oral 
remarks is the prescriptive side of what we're talking about 
today, in part because it would be so hard to do better than 
what we've heard analytically.
    I agree: The United States should offer to talk with the 
Government of Iran, not as a reward, but simply as a 
recognition that ignoring it has not weakened or isolated Iran. 
To put it bluntly, regime change is a wish, not a strategy, and 
we need to have a strategy.
    In doing that, the United States should resist setting 
preconditions on negotiations over Iran's nuclear program or 
other troubling aspects of its foreign or domestic policy. What 
matters most in a negotiation is not where you begin, but where 
you come out, and we should not lose sight of that.
    We should also--and I think here I'm seconding my good 
friend Frank Wisner--resist Iranian calls for preconditions or 
for apologies by the United States. The focus of any 
negotiation should be the present and future. And if the 
Iranians insist on apologies by the United States, I would 
simply take it as a sign they are not serious.
    It's true that we should have a comprehensive agenda, but 
among the things we should be resisting, I would suggest, is 
linkage. We should be open to making progress where we can. To 
put it another way, we don't have to have progress everywhere 
in order to have progress anywhere. It may well be that Iraq 
and Afghanistan are two places the United States and Iran can 
realize some accommodation, despite the fact that we may well 
be unable to in the nuclear realm or vis-a-vis, say, Hamas. My 
own experience,
by the way when President Bush put me in charge of coordinating 
our policy toward Afghanistan after 9/11, was that the United
States and Iran could make some progress working together in 
that country.
    As others have said, and I echo it, United States policy 
needs to be multilateral, with the IAEA, the other major 
powers, and Iran's neighbors; there's no serious unilateral 
option for the United States. And the goal should be to get 
international agreement on what we want from Iran and what we 
are prepared to do for Iran, but also on what we are prepared 
to do to Iran if we can't get that agreement.
    There's probably a division of labor between what happens 
bilaterally between the United States and Iran if such talks 
are undertaken, and what happens multilaterally. And I would 
simply say that it then becomes important that the United 
States makes sure the various tracks are coordinated. It's a 
similar challenge that the United States faces with the North 
Korean negotiations. It ought not to be insuperable.
    Russia will be a particularly important element of any 
talks. It ought to be a priority of the United States to gain 
Russian cooperation on Iran. And, as has been reported, and I 
support this, the United States should be willing to set aside 
its plans for missile deployments in Central Europe and Eastern 
Europe if we can gain Russian support for our Iran policy. 
Foreign policy by the United States needs to be about 
priorities. And to put it bluntly, the Iran issue is a priority 
for us.
    I would be wary of a containment policy of Iran in the 
region. It could simply, I believe, reinforce tensions between 
Shias and Sunnis within countries, which would not be in our 
interest. I also believe that, to the extent the choice in the 
region becomes one of supporting either Iran as opposed to 
Sunnis, the sorts of people who will come to the fore in the 
Sunni world will not be people we are going to applaud or 
welcome. Sunni extremism, as we have learned the hard way, is 
just as much a threat to United States interests in the region 
as can be Shia extremism or Iranian-backed imperial policies.
    Let me turn to the nuclear program for a few minutes. There 
are three choices. There's the military choice, there's the 
acquiescence choice, and there's the diplomatic choice.
    The military choice is a classic preventive attack. And I 
underscore the word ``preventive.'' We are not yet at a moment 
where we would have to contemplate preemptive strikes. No 
Iranian capability or use of that capability is imminent. So, 
the military option that is before the United States is a 
classic preventive strike to try to stop or interrupt what you 
might describe as a gathering threat. The question is what such 
a strike could accomplish. It is impossible to destroy what you 
don't know about, and it's not always possible to destroy what 
you do know about. So I believe we need to be sober about what 
a military strike could accomplish.
    But, second, and perhaps just as important, whatever it 
could accomplish, we should not delude ourselves that the 
scenario would stop there. Iran would surely retaliate, using 
tools that are available to it in places where it can exercise 
or deploy those tools--I would think in Iraq and Afghanistan--
and also possibly in ways that would dramatically increase the 
price of energy. I would simply say that coming against the 
backdrop of where we are economically, we need to think hard 
about that.
    I also believe, based on my own experience, that despite 
the occasional whisperings of certain Arab governments that 
they would welcome such a strike, I am not persuaded that, in 
reality, they would. One should always be careful about what 
governments are willing to tell us privately, but not say 
publicly. We should not, therefore, assume that we would have 
anything like the widespread support in the Arab world that 
certain individuals in the Arab world suggest.
    And last, after a preventive strike, the Iranians would 
then go about reconstructing their nuclear option, with even 
greater determination and greater domestic support to do so, 
and they would probably then go about it in a way where a 
second preventive strike would be that much more difficult. So 
even under the most optimistic scenarios, a successful 
preventive strike would not solve the problem, by any means, 
either as regards Iran's nuclear program or its foreign policy 
more broadly.
    So, let me turn to the second option, that of tolerating or 
acquiescing in some type of an Iranian large-scale enrichment 
capability, what you might call a ``near-nuclear-weapons 
option.'' Even if it didn't go any farther than that, it would 
have consequences and costs. I believe it would increase 
Iranian assertiveness around the region, which is already quite 
great, as we've seen over the last half-dozen years. It would 
prompt other countries to follow suit, as has already been 
described. It would also leave Israel and Iran on something of 
a hair-trigger. Imagine if you had the sort of crisis that you 
had several years ago in Lebanon between Israel and Hezbollah. 
In a context in which Iran had a near or actual nuclear weapons 
capability, the potential for instability, and, conceivably, 
the introduction of nuclear threats or nuclear use into the 
Middle East could not be dismissed.
    More broadly, if Iran developed some sort of a near nuclear 
capability, we would obviously want to introduce greater 
sanctions and threats to deter it from crossing redlines. For 
example, the redline from going to low-enriched uranium to 
high-enriched uranium. Weaponization would be yet another 
redline, as would testing.
    We also want to think about setting down certain 
understandings about what would happen if Iran carried out a 
transfer of materials or capabilities. And obviously there is 
the question of use.
    And on our side, on top of all of that, there are things 
that we would do to enhance defense in the region. This would 
involve such things as missile defense, selective security 
guarantees to local states, declaratory policy toward Iran 
about such issues as mobilization of nuclear forces, crossing 
various redlines, transfer, or use. Essentially, we would be in 
the business of nuclear management, with all the policy 
elements that that would introduce into our foreign policy.
    Given that, the best course is obviously a diplomatic one 
that would lead Iran to suspend, or, better yet, give up, its 
national enrichment program. We would offer political, 
economic, energy, and strategic incentives for Iran to do so, 
again along with threats about what would happen if it did not 
do so. These would, again, be put forward multilaterally.
    It is unlikely that we will succeed down this path, given 
how popular the so-called ``right to enrich'' is within Iran, 
and given how far along Iran is.
    I believe a negotiation really will need to focus on 
whether Iran is allowed to have some enrichment activity. Or, 
to put it another way, on how the right to enrich is defined. 
What is the scale and what is the degree of transparency? What 
is the degree of IAEA access? I would simply say our response 
ought to be calibrated to this so that sanctions relief, such 
as it is, would be directly linked to what it was Iran agreed 
to, in terms of scale of a program, state of a program, and 
transparency of a program.
    I would like to make two final points. The first relates to 
the timing of all of this. I believe the United States now 
ought to use the time to put together a preferred national 
position, and then ought to use the next few months to sell it 
internationally. If there is an effective road to Tehran, it 
most certainly passes through such places as Moscow, London, 
Paris, Berlin, and Beijing. And so, it may actually then render 
moot this question of timing--when we would put something 
forward vis-a-vis the Iranian election. My own sense is, it 
will take several months for us to line up the sort of 
necessary international support that we would need. This is 
probably just as well. I am uneasy about introducing new 
proposals in the context of the Iranian election cycle, though 
I also totally agree with the dangers of thinking that we can 
somehow play Iranian politics in ways that'll work in our 
favor. So, again, my focus would be on lining up international 
support.
    My last point is that whatever it is we line up, we ought 
to do it, ultimately, publicly. It's odd for me to say this, 
because, as someone who's spent a lot of his career as a 
diplomat, we like to do things in private, but this ought to be 
done in public as much as possible. And the reason is twofold. 
It is important to let the Iranian people see the 
reasonableness and the attractiveness of what could be theirs 
if they agreed to play the international game, so to speak, by 
the rules. And it's important, also, that the Iranian 
Government be pressured by the Iranian people to explain why it 
has sacrificed Iran's future, why it has compromised what could 
be Iran's standard of living, to pursue this nuclear dream. Let 
the regime have to justify that against the backdrop of 
inflation that is above 30 percent, against rising 
unemployment, against the backdrop of low oil prices. It should 
be made public to let them explain their choice.
    Going public has another advantage: It helps here, and it 
helps around the world. If we can demonstrate that what we are 
offering Iran is reasonable, I would suggest it will make it 
less difficult for us to rally the sort of international 
support we want. If it comes to escalation, whether sanctions 
or what have you, it's important that we, in a sense, take the 
high road, that we show that we have passed the ``reasonable'' 
test, and that it is Iran that has essentially rejected a fair 
and reasonable course offered to it.
    Thanks you very much.
    [The prepared statement of Ambassador Haass follows:]

  Prepared Statement of Hon. Richard N. Haass, President, Council on 
                    Foreign Relations, New York, NY

    Mr. Chairman, thank you for this opportunity to testify before the 
Senate Committee on Foreign Relations on the subject of Iran and U.S. 
policy toward Iran.
    Iran constitutes one of the most serious and most difficult 
national security challenges facing the United States. What I plan to 
do in this statement is offer some judgments about Iran and then put 
forward several suggestions for U.S. policy.
    Thirty years after the Islamic revolution, Iran is one of the most 
influential local states in the greater Middle East. Its strategic 
position has benefited enormously from Saddam Hussein's fall from 
power, the weakening of the Iraqi state, and the coming to power in 
Baghdad of a Shia-led government. Iraq is no longer able nor is it 
inclined to offset Iran. In addition, the ouster from power of the 
Taliban in Afghanistan was a long-time Iranian objective. The rise of 
political Islam and groups such as Hezbollah in Lebanon and Hamas in 
the Palestinian territories provides Iran with powerful instruments. 
And Iran was also (at least until fairly recently) the beneficiary of 
high energy prices. The net result is that Iran is now something of an 
imperial power, one that defines its interests broadly and seeks to 
influence a large number and wide range of regional matters.
    Iran's political system is sui generis and difficult to categorize. 
It combines elements of both theocratic authoritarianism and democracy. 
Public opinion matters there, though, and debates take place both 
within the government and between the government and society. These 
differences should not be exaggerated. Iran is not about to descend 
into revolutionary unrest. The United States should jettison the notion 
of regime change as the centerpiece of its policy toward Iran. The 
focus should be on modifying Iran's behavior; over time, there is the 
possibility of meaningful and desirable societal and political 
evolution, but this is more likely to happen from an Iran that is 
integrated into the region and the world than from one that is cut off 
and able to indulge in the most extreme forms of radicalism and 
nationalism.
    Fundamental differences exist between United States and Iranian 
outlooks and foreign policies. Even a short list of such differences 
includes attitudes toward Israel, terrorism, and nuclear proliferation 
in addition to the specific grievances each holds vis-a-vis the past 
behavior of the other. At the same time, there are areas in which the 
United States and Iran agree more than they disagree. Afghanistan comes 
to mind in this regard, as both governments oppose a Taliban return to 
power and continued opium production. There is also at least some 
common interest in Iraq, as both the United States and Iran want to 
avoid Iraq's becoming a failed state.
    The notion of talking with the Iranian Government at an official 
level makes good sense. To do so is not to reward the Iranian 
Government but rather to judge that ignoring Iran--a policy of 
neglect--has not weakened the regime or its influence and will not in 
the future.
    In approaching Iran, the United States should resist setting 
preconditions. In particular, it makes no sense to demand as a 
precondition what is a potential objective of the interaction. What 
matters in a negotiation is not where you begin but where you come out. 
This applies principally but not only to Iran's nuclear activities.
    In the same vein, the Obama administration should resist Iranian 
demands that the United States meet certain preconditions. Exchanges 
about the distant past and calls for apologies for alleged or real 
actions are a distraction. The agenda should focus on the present and 
future. An Iran that insists on such preconditions is not serious about 
negotiating.
    The United States should not engage in linkage, i.e., demanding 
that progress materialize in one or more areas in order for there to be 
progress in others. Rather, the goal should be to make progress where 
it is possible. (There is, for example, no reason to rule out 
cooperation in Afghanistan because we cannot agree about Hamas.) That 
said, it is a fact of life that disagreements in some realms of the 
relationship will affect what the United States does in reaction to 
that concern and what it may choose to do overall.
    U.S. policy must be thoroughly multilateral. This means working 
with the IAEA on nuclear matters and coordinating nuclear-related 
policy--what is sought from Iran, what will be offered to Iran if it 
meets these requirements, what will be done to Iran if it does not--
with the EU, Russia, China, and others who are important trading 
partners of Iran. It also means consulting with Israel, the Arab 
States, and Turkey. There should be a multilateral negotiation (on the 
nuclear issue) and a bilateral negotiation (on all issues, including 
Afghanistan, Iraq, regional security, terrorism, support for Hamas and 
Hezbollah, and miscellaneous bilateral concerns as well as the nuclear 
issue). One requirement for the Obama administration will be to make 
sure these two tracks are closely coordinated.
    Russia is of particular importance. Foreign policy must determine 
priorities, and gaining Russian cooperation on Iran should be high on 
any such list. Supporting Russian accession to the WTO, slowing the 
pace of NATO enlargement, exercising restraint on going ahead with 
plans for missile defense in Europe, supporting calls for a Russian 
nuclear fuel bank or Russian participation in any international 
consortium that would provide fuel for nuclear powerplants--all ought 
to be on the table.
    The United States should avoid institutionalizing a containment 
policy that would divide the region along Sunni-Shia or Arab-Persian 
lines. This would likely increase tensions within those countries that 
have significant Sunni and Shia populations. It would also reinforce 
the most radical Sunni elements in the Arab world--the same elements 
that are at the core of groups such as al-Qaeda. And it ignores the 
potential to involve Iran in efforts where our goals overlap or at 
least are not in total opposition.
    Iran has advanced much farther in its nuclear program and has done 
so in less time than most experts predicted. The latest reports are 
that Iran possesses roughly a ton of low-enriched uranium. It would 
require only several months to adapt Iran's centrifuges so that it 
could produce highly enriched uranium. The United States and the world 
would have warning of this action only if it were done at declared 
facilities and if the IAEA enjoyed sufficient access.
    There are three choices when it comes to Iran's nuclear program. 
One involves military force. Consideration of military options 
inevitably involves several judgments. The first is what a use of 
force--a classic preventive attack--might accomplish. Presumably it 
would destroy a large portion of Iran's nuclear facilities, although 
just how much is unknown given the uncertainty associated with any 
military action and the reality that we may not know where all the 
components of the nuclear program are located.
    There is also the question of what a preventive strike would 
trigger. Iran would likely retaliate against American personnel and 
interests in Iraq, Afghanistan, and possibly elsewhere. Iran might also 
take steps to interfere with the production and flow of oil and gas, 
thereby reducing supplies and driving up prices. Such a development 
would add to the already severe global economic slowdown. Iran would 
likely move to reconstitute its nuclear program, but in a manner that 
made a second preventive attack far more difficult to carry out. An 
attack would also likely further radicalize Iran; most Iranians would 
conclude that such an attack would never have been undertaken had Iran 
possessed a nuclear weapon and been in a position to deter it.
    It is possible that the threats of sanctions and military force (as 
well as the lure of economic and political integration) will persuade 
Iran to renounce its nuclear program. This is unlikely, though, given 
the popularity the program enjoys in the country. More likely is an 
Iranian decision to continue to enrich uranium but not test or build 
actual weapons. Such a near-nuclear option would put Iran in a position 
to produce weapons-grade uranium that could be ``weaponized'' in a 
matter of months. It is also possible that Iran will decide to cross 
this line and test and build weapons as India, Pakistan, and North 
Korea all have. But this is less likely given that it would be 
inconsistent with Iran's public statements and would run the risk of 
more significant sanctions, including an enforced denial of refined 
gasoline exports to Iran, as well as a preventive armed strike on any 
and all facilities known to be associated with Iran's nuclear program.
    Still, even an Iran that ``limited'' itself to a near-nuclear 
option would change the strategic landscape. Nevertheless, one 
alternative to launching or supporting a preventive attack is a policy 
of living with an Iranian nuclear weapon or with an Iranian program 
that could produce one or more weapons in a matter of months. Although 
there is a high probability that Iran could be deterred from using 
nuclear weapons, this approach contains significant drawbacks. An Iran 
with nuclear weapons or an option to build them in short order is 
likely to be even more assertive throughout the region. A second risk 
of this ``acceptance'' approach is that other states in the region 
(including Egypt, Saudi Arabia, and Turkey) might be tempted to follow 
in Iran's footsteps, a process that would be destabilizing every step 
of the way. Even if they did not, this situation would place Israel and 
Iran on something of a nuclear hair-trigger. Mutual assured destruction 
is for understandable reasons not an attractive notion to a state such 
as Israel given its small number of large cities, its relatively small 
population, and the history of the Jewish people.
    Managing an Iranian nuclear or near-nuclear capability will bring 
to the fore a number of decisions, including whether the United States 
should station or provide missile defense to local states, extend 
security guarantees to selected states, and issue a clear declaratory 
policy. Iran must know that any use or transfer of nuclear materials 
will bring devastating consequences to the country and those who rule 
it. Iran must also know that it would make itself vulnerable to a 
preemptive attack if the United States received evidence that Iran was 
altering the alert status of its nuclear forces. The United States 
should also consider selected enhancement of Israel's own nuclear 
capacities. The overall goal is to bolster deterrence and to increase 
defense should deterrence ever break down.
    Far preferable to either attacking Iran or accepting a nuclear Iran 
would be persuading Iran to suspend or give up its enrichment effort 
altogether or, failing either of those outcomes, to accept significant 
limits on it. In return, some of the current sanctions in place would 
be suspended. In addition, Iran should be offered assured access to 
adequate supplies of nuclear fuel for the purpose of producing 
electricity. Normalization of political ties could be part of the 
equation. As part of such a negotiation, the United States should be 
willing to discuss what Iran (as a signatory of the NPT) describes as 
its ``right to enrich.'' It may well be necessary to acknowledge this 
right, provided that Iran accepts both limits on its enrichment program 
(no HEU) and enhanced safeguards. Such a right must be earned by Iran, 
not conceded by the United States.
    The optimal timing of a new U.S. diplomatic initiative can be 
debated. The rationale for delay is to reduce the risks that the United 
States and Iran's nuclear option will enjoy center stage in the 
upcoming Iranian election campaign. Such a focus would be unfortunate 
because it would distract attention away from Iran's economy (the 
Achilles heel of the incumbents) and because public debate on the 
nuclear issue at this time in Iran would likely push all candidates to 
embrace more nationalist positions. Reaching out now could also allow 
the incumbents to argue that their radicalism brought the United States 
to the negotiating table. There is the possibility that the next 
Iranian Government will be different than (and preferable to) the 
current one. The problem with delay, however, is that it provides Iran 
additional time to produce enriched uranium. What is more, ``gaming'' 
another country's politics, and in particular Iran's given its 
conspiratorial bent, can be difficult at best and counterproductive at 
worst. Still, I lean toward waiting until after Iran's June election 
before launching a new initiative, but with the caveat that the time be 
used to develop the substance of a new comprehensive offer that the 
Europeans, Russians, and Chinese would support. The best road to Tehran 
runs through Brussels, Moscow, and Beijing. Should this road prove 
rocky, the dilemma over when to launch a new diplomatic initiative may 
well become moot as the United States will need the months until June 
to work to garner international support for a new approach to Tehran.
    The basic elements of any policy proposal toward Iran need to be 
made public. The Iranian Government should have to explain to its own 
public why it pursues certain foreign policies that incur significant 
direct and indirect costs to the country.
    Public diplomacy will also help pave the way for escalatory steps 
against Iran if they should be deemed necessary. It is important that 
the American public, Congress, and the media here, as well as foreign 
publics and governments, understand the reasonableness of what was 
offered to Iran and the fact that it was rejected.
    Two final points. The current economic crisis is having a mixed 
effect. On one hand, the fall in world oil prices and Iran's economic 
plight increase opportunities for using economic leverage effectively. 
These conditions also create internal pressures on the Iranian regime. 
At the same time, there is little or no cushion in the global economy, 
and a major crisis involving Iran that led to substantially higher oil 
prices would cause a sharp worsening of the global slowdown. This 
latter set of concerns constrains U.S. options.
    Finally, a successful policy toward Iran will require more than a 
different policy toward Iran. It will also require a broader foreign 
policy response, beginning with a serious move to reduce U.S. and 
global consumption of oil. This is the only way to protect against 
future price increases that would resume massive flows of dollars to 
Iran. A successful Iran policy will also require movement on the Arab-
Israeli front. This argues for U.S. efforts to broker an Israel-Syria 
peace treaty. It also calls for greater efforts to improve prospects 
for progress between Israelis and Palestinians. This means providing 
moderates with an argument that moderation pays, something that will 
entail building up the economy on the West Bank and putting in place an 
ambitious diplomatic process that holds out real hope of a two-state 
outcome.

    The Chairman. Well, thank you all very much. Very 
complicated questions, obviously. Appreciate your testimony 
enormously.
    Let me just begin by asking, right up front: What is the 
appropriate redline? Is there a redline that needs to be drawn? 
Obviously, the Bush administration drew some, and we passed by 
them in sequence. So, the message is one of ambiguity, if not 
impotence. And the question now to be asked by a new 
administration, and by us here, Is there a redline? If so, what 
is it?
    Ambassador Haass. Is that question to me?
    The Chairman. Sure. Ambassador Haass, Ambassador Wisner, 
and then I'd like----
    Ambassador Haass. Let me just say one thing, Mr. Chairman, 
that's implicit in your question. Redlines have consequences. 
When the United States says something is a redline, when the 
United States says a course of action is unacceptable, those 
are not words that we ought to use lightly. If we do, we simply 
devalue the currency, and that will have consequences, not 
simply vis-a-vis Iran, but vis-a-vis every other thing we do in 
the world diplomatically.
    The Chairman. I couldn't agree with you more, but let me 
say, as a preface to the rest of your answer, many countries, 
ourselves included, have already made many public declarations 
about the unacceptability of a nuclear weapon in Iran, and that 
is the current policy that's also been adopted by the sanctions 
regime and otherwise. So, the question is, Are we prepared to 
enforce that? And if so, how does one?
    Ambassador Haass. What I would do is avoid anything that 
would undo that position. There's no reason to invite or give a 
green light to Iran going down that path. What I would do, 
though--coming back to something I said before--is have a 
relationship between Iran's progression down a nuclear path and 
what it would expect, were it to cross certain thresholds. 
Right now, what we have is Iran at what you might call an 
industrial-scale low-enriched threshold. It has crossed that 
threshold, it reached that threshold.
    The Chairman. Correct.
    Ambassador Haass. And if they stay there and do not roll 
that back, what I would try to do is negotiate an international 
package of sanctions that would stay in place, so long as they 
stayed at that level and did not roll it back. And I would also 
make clear what would be the incentives for them to step back.
    I would then have additional packages of sanctions and 
other measures that would be introduced were they to go through 
other potential steps. For example, an even greater scale of 
enrichment, as Mark laid out, or----
    The Chairman. There are a series of sanctions, which we've 
talked about here----
    Ambassador Haass. Right.
    The Chairman [continuing]. That can get much tougher.
    Ambassador Haass. Right, including, for example, when we 
would try to get a U.N. Security Council resolution that would 
call for a ban on the export to Iran of refined petroleum, one 
of the things that Iran's economy, as you know, needs. And a 
followup to that, almost akin to some of the Iraq resolutions 
from 1990-91, would be to provide the authority for all 
necessary means to enforce such a ban on petroleum exports to 
Iran. So I would be prepared to suggest----
    The Chairman. You'd be prepared to do that, notwithstanding 
whatever potential impact there might be on oil prices?
    Ambassador Haass. I would think that's the sort of policy 
review we should go through domestically and that we might want 
to sell internationally. And, as I say in my written statement, 
one of the things we've got to do if we're going to down this 
path with Iran, is, we can't do it in isolation from a serious 
strategy to try to reduce American use of, and consumption of, 
oil. To leave ourselves as exposed as we are reduces our 
ability to do the sort of escalatory measures we're just 
discussing here.
    The Chairman. Mr. Wisner.
    Ambassador Wisner. Senator, I've followed, as you have, our 
diplomacy now for a number of years, and we have talked 
throughout about redlines, unacceptability, we've set 
deadlines, we've--I think, frankly, as we look at the next 
stage, we should start emphasizing the positive. Richard Haass 
has outlined many steps that we could take. I've tried to 
indicate the importance of addressing Iran's security 
circumstances, of engaging it more generally. Begin to 
emphasize the positive side of the agenda.
    The Chairman. Well, I understand that.
    Ambassador Wisner. That does not----
    The Chairman. I understand that.
    Ambassador Wisner. That does not mean removing from the 
table the negative side. But, rather than emphasizing publicly 
the negative side and then being unable to deliver on it, 
either in our dealings with the Security Council, notably the 
Russians and the Chinese, I would prefer to downplay the 
negative, but be very serious about organizing it to get----
    The Chairman. Well, here's the problem. Here's the problem 
with that. And it's the problem with our overall policy, it's 
the problem with the road we've traveled. You know, these folks 
are smart. People know how to read the tea leaves. You either 
have consequences or you don't, in foreign policy. And if 
people believe that you don't, they're going to make a set of 
judgments, accordingly. It would be my preference, and 
everybody on this committee's preference, that Iran understand, 
you know, we're not--you know, regime change isn't on the 
table, we're not sitting here--you know, we're looking for a 
way to engage and to find the positive. But, if they continue 
to try to develop a bomb, which is the judgment most people are 
making they are doing----
    Ambassador Wisner. Well----
    The Chairman [continuing]. There's a question whether 
they're developing the capability or whether they'd then go to 
the weaponization. And so, that's sort of part of my question, 
Do we draw a line that we mean something about, and then go out 
to the international community--because either the arms race of 
the Middle East is unacceptable--I mean, Egypt, Saudi Arabia--
if they feel threatened and decide this, then the whole thing 
begins to unravel. So, we have to decide, What is the line at 
which we are serious, at which the world is prepared to take 
steps? And the Iranians have to understand that, do they not?
    Ambassador Wisner. Iran--I--Senator, you're absolutely 
right. The redline that I'm suggesting is one we draw 
internally, but using it to threaten the Iranians--we've seen 
the consequences----
    The Chairman. Doesn't do a lot, I agree.
    Ambassador Wisner [continuing]. Of threat. Doesn't do a 
lot. That we have our own redline. That we organize our 
diplomacy to meet that redline, I'm fully in support of. I want 
to try to change the approach to the problem so we're trying to 
engage the Iranians, showing there's flexibility in our 
diplomacy, while internally we are very tough about the 
provisions----
    The Chairman. What we might do. Fair enough.
    So, Mr. Sadjadpour, how do we make certain that, as we 
engage in that process, that the talking--the delay is not--the 
process is not misinterpreted, that there is a clarity to what 
we believe is real, and it's communicated in a way that it 
isn't a threat, that it's a reality, but not a bullying, if you 
will, not a sort of, you know, pressure point, it's just a 
reality, and we reduce the tensions, but they don't 
misinterpret the fact that we're engaging in the diplomacy as 
an excuse to then put us in a position where alternatives have 
been taken away from everybody.
    Mr. Sadjadpour. Well, I think it's a delicate balance, 
Senator Kerry, because, as I see it, the short-term tactics and 
the long-term strategy are at loggerheads, in the sense that I 
think, in the short term, it's imperative that we make it very 
clear to the Iranians and to President Ahmadinejad that a 
belligerent noncompromising approach is not going to reap 
rewards. And what we've challenged them with is greater 
sanctions, greater political and economic isolation.
    The problem, as I see it, is that the hard-liners in Tehran 
thrive in isolation. I describe them as weeds that only grow in 
the dark. So isolation is not necessarily a stick to them; in 
some ways, it's a carrot. And ultimately, our problem with Iran 
is the character of the Iranian regime. And my concern is that 
the measures we're taking to send the signal to them that their 
belligerent approach is not going to reap rewards actually 
strengthens the individuals we're trying to hurt.
    So, I've been doing some research in Dubai, because Dubai 
is the place--Dubai is the arena where Iran is most effectively 
circumventing the sanctions regime and allaying its economic 
isolation. And when I talk to businessmen in Dubai, Iranian 
businessmen who are going back and forth, and European 
businessmen, and foreign businessmen who are dealing with Iran, 
the recommendations they always have are to have more targeted 
sanctions, targeting senior officials within Tehran, as opposed 
to broader sanctions which simply strengthen the regime's hold 
over the economy and are not conducive to economic and 
political reform.
    The Chairman. Well, my time is up. I want to recognize 
Senator Lugar. But, as I do, let me just say that I agree 
completely--
I think it was Ambassador Haass who said--you know, I don't 
think we should pretend that we have the ability to affect the 
Iranian elections. We don't. But, I don't think we should give 
any read of any kind of interpretation, in the next months, 
that allows anybody to exploit it or play games with it. And I 
completely believe that we must be organizing the international 
community's clear understanding of what this line is or isn't, 
of what we're prepared to do, or not, and then engage in the 
diplomacy that makes it as attractive and as feasible and as 
possible to be able to, all of us, move down a different road.
    I was struck by the fact--I mean, there is--there really is 
a positive side to what a relationship could produce, in terms 
of Afghanistan, Iraq, energy, any number of other issues. And 
those are much bigger than any of the other kinds of things 
that have been allowed to define this. So, I hope we'll take 
advantage of that.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. Let me just pick up 
where you left off. One of the positive aspects, although it 
may be superficial, is that there is a new administration here 
in the United States. There is a congratulatory letter that has 
arrived from the President of Iran to President Obama. Some 
would say that it is not sincere, but, nevertheless, this might 
be true of communications from leaders of many countries around 
the world who look for a new policy.
    Some of you have suggested that we formulate, in the next 
few weeks, a new policy, and that we do so publicly. In other 
words, that the American people have some idea what the 
arguments are, as they will, listening to our conversation this 
morning. As people try to pin down what it is we want to do we 
must remember that are not only selling it to the international 
community, but also to the American people.
    We've been on a different course, at least some Americans 
have been, starting with the ``axis of evil.'' This policy 
identified three targets, and Iran was one of them. And the 
regime-change idea has been out there, and it still may have 
some supporters that believe we should provide foreign 
assistance to help various groups within Iran who are 
democratically inclined to infiltrate the system. This strategy 
still has supporters and so we continue to have a debate within 
our own congregation here.
    But, let us say that we finally decide what this policy 
is--and I think, as you said, Dr. Haass, this may not come 
easily for us, quite apart from our explanation to our allies. 
Nevertheless let's say we try to sell it to the allies, and we 
reencounter some of the problems that we have had already seen 
with Russia and China, but, likewise, with Europeans who have 
commercial interests and others. It is not an easy sell to any 
of the above, each of the governments have different agendas.
    Meanwhile, we are busy working through the problems of 
Afghanistan and Pakistan which intersect Iran. And, as some of 
you have suggested, this will probably require, at minimum, 
some Americans talking to some Iranians. As we formulate our 
overall policy, we must determine the best way to communicate 
with Iranians. How do we reach out to those elements of Iranian 
society who we believe have some affinity for us. In other 
words, how do we ensure that our efforts to communicate with 
people in Iran produce results. As all of you have said, we 
want the people of Iran to be watching and monitoring 
international discussions and negotiations on these matters. 
Not only do we want our allies and the American people watching 
how we are attempting to build a comprehensive relationship. An 
equally important message to the Iranian people is that we here 
in the United States have differences of opinion but we're 
trying to resolve those.
    Finally, discussions of additional economic sanctions on 
Iran continue. A wide variety of forms and degrees of sanctions 
have been suggested. The global economic crisis is making this 
process harder for all involved. It is difficult to set a 
baseline for action when the condition of the United States 
economy in 2009 is unknown as are the economies of Russia, 
China, or Iran.
    Six months ago we could not have imagined what changes the 
economic crisis would have on foreign policy. The collapse of 
banking institutions, currencies, and economies has 
dramatically changed the international landscape. The economies 
of countries who rely on incomes generated from natural 
resources have changed markedly. Iran is such a case. As you've 
pointed out, perhaps the Ayatollah is unaffected by the economy 
but the rest of the country is feeling the effects. 
Conceivably, the GDP of Iran may sink almost interminably, and 
you would still have those preaching that you're on the right 
trail. If we had communicated better and been more transparent 
in what we are doing, the Iranian people would have a better 
understanding of the rationale and implications of sanctions 
and they would appreciate how and why we take each step. The 
sanctions will have more consequence and greater affect on 
Iranian society if we better understood the Iranian economy.
    For the moment, we have a superficial idea of the affects 
of sanctions on politics of the country, the rural people who 
may or may not have been very well served, quite apart from 
students and so forth. But, we've really not concentrated, in 
an academic way, on the effects of sanctions in Iran. And we 
probably ought to have that as a part of our argument with the 
international community, because other economies are going to 
be affected by either turning on or off various situations.
    But, the overall effect of this could be positive, even if 
there are not decisive steps taken. In other words, the fact 
that we are engaging with the American people, the world 
community, and hopefully Iranians themselves on how nuclear 
strategy ought to proceed in Iran. The goal would be to help 
Iranians to come to grips with the costs and tradeoffs of the 
nuclear program and options that would permit their stated 
objectives while reassuring the international community of 
their stated peaceful intentions.
    Before we adopt a new policy, we're going to have to 
convince our constituents and the international community that 
our proposal is the most appropriate and most likely to succeed 
and your suggestions here today have helped this immeasurably.
    Let me just ask if any of you have any reactions to this 
overall summary that we've tried to give.
    Yes, Richard.
    Ambassador Haass. As I listened to both you and Senator 
Kerry, and to my colleagues here, I increasingly think, for the 
United States, diplomatically, the single biggest question in 
the nuclear realm that will meet us in the next few months is 
whether we are prepared to accept a limited Iranian right to 
enrich. If we basically insist that they have zero enrichment, 
I believe there is a negligible chance we can ever get them to 
accept that, or that we could ever set in motion a debate in 
that country where, no matter what was offered to them, it 
would be a desirable deal. And I also believe a zero-enrichment 
insistence would make it very difficult for us to build the 
requisite degree of multilateral international support for the 
kind of sanctions escalation we're thinking of.
    So, my own position is that we ought to think very hard 
about defining an acceptable, limited Iranian enrichment 
capability. We would do that and say, ``If you limit enrichment 
to this, and if you accept this degree of transparency and 
inspection, we can then offer you the following incentives. We 
may still keep in place some limited sanctions, because our 
preference would be that you go down to zero. And if you don't 
accept this''--going back to Senator Kerry's question, which is 
also really in yours--``as you go down certain paths, the mix 
of incentives and sanctions would change in a way that would 
not be to your liking.'' But, I really do believe some 
willingness to accept the so-called--or, quote/unquote ``right 
to enrich'' is essential, both for winning the argument in 
Iran, that what we're offering to them is worth their taking, 
and for winning the argument in places like Moscow and Beijing.
    And I'm sad to say I think we've reached that point. We can 
argue whether, 7 or 8 years ago, we might have been able to 
head off ever reaching that point. But, I believe that is where 
foreign policy is now.
    The Chairman. Mr. Sadjadpour.
    Mr. Sadjadpour. I would second Dr. Haass's comments, and I 
would say that--I would argue we need not concede that right 
before the negotiations take place, but certainly, as part of 
an end game, I think it would be something more palatable not 
only to Iran but also to our allies.
    I would make a couple of points. One is that when the 
United States prosecuted the Iraq war, we pursued very strong 
resolutions at the U.N., and therefore, we achieved a very weak 
coalition. And I think our strategy with regards to Iran needs 
to be the opposite, in the sense that we pursue, initially, 
somewhat weaker resolutions in order to achieve a broader 
airtight coalition. Because I think what the Iranian leadership 
fears is not an amplification of existing United States 
sanctions or European sanctions. What they fear is the day when 
not even the Russians or the Chinese or the Indians are 
returning their phone calls. This is what I think will 
concentrate Iranian minds the most.
    And the second point, as you mentioned, Senator Lugar, is 
the contraction of oil prices. I once did a study charting the 
price of oil from 1979 to the present, and charting major 
Iranian foreign policy milestones. And I can tell you, it's not 
coincidental that, in 1997, when then-President Khatami first 
called for a dialog of civilizations, oil was at $12 a barrel, 
and when President Ahmadinejad first denied the Holocaust, oil 
was at $70 a barrel. So, I think we will--this will be our best 
weapon in continuing forward with Iran, this contraction of oil 
prices, coupled with a very airtight multilateral approach.
    Senator Lugar. Well, my time is expired, but I appreciate 
almost a description of metrics of trying to determine how much 
enrichment is possible, or how we're progressing. On the other 
hand, what--how the screws are turned, what they do with regard 
to this, whether it be the oil prices, the international 
community, and what have you. But, it's very helpful.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much. And I 
appreciate this opportunity for us to examine, with these 
experts, the national security challenge that we face with 
regard to Iran, and also to explore the options. So, thank you 
for making this opportunity possible. It's a critically 
important issue.
    I wanted to try to get to about three areas, if possible. 
The first one, I wanted to direct Mr. Fitzpatrick's attention 
to just a very brief background that I'll provide, and then 
also your testimony on some of the technical aspects of this. 
For those of us who are not scientists I want to try to achieve 
some clarity.
    One of the problems with the question of where Iran is with 
its nuclear capability, both where they are and what the 
timeframe is--it's almost like we get a continual stream of 
pronouncements about where they are and what the timeframe is--
after a while, there's kind of a blizzard of facts and 
seemingly inconsistent assertions about it. Even this weekend, 
we saw Secretary Gates saying something, and Admiral Mullen 
saying something, which seemed to be, if you read it 
carefully--you can read them together and may not have an 
inconsistency, but the way they're sometimes articulated can be 
confusing.
    I'm looking at two descriptions here. One is yours. I'll 
start with a general summary, here, of something that isn't in 
your testimony, but I think is consistent, the annual threat 
assessment presented--or submitted, I should say--to the Senate 
Committee on Intelligence, saying that the key components that 
Iran had to successfully complete in order to obtain a nuclear 
weapon are the following. One, production of fissile material; 
we know that. Two, effective means for delivery, for weapon 
delivery. And three, design, weaponization, and testing of the 
warhead.
    And I noticed in your testimony--first of all, it's helpful 
when you make statements in your testimony like ``having a 
stockpile of enriched uranium is not the same thing as having a 
bomb.'' In the public press, sometimes they get confused. But, 
I was interested, on the top of page three of your testimony, 
where you say, ``For a weapon, the low-enriched uranium first 
would have to be further enriched to 90 percent or more.'' And 
then you go on from there.
    Could you answer the question in two ways? No. 1, what are 
the specific steps the Iranian regime would have to take to 
reach the point where they could actually launch a nuclear 
weapon? In other words, the ultimate threat. And No. 2, what is 
the timeframe that you think--within which that could happen? 
Because we hear all kinds of timeframes--2010 to 2015, some say 
2013. Just like the question itself, the timeframe has become 
kind of a blizzard of assertions.
    Mr. Fitzpatrick. Thank you, Mr. Senator. I'll try to answer 
the question directly.
    The first step, Iran would have to enrich further to 90 
percent. As I said, most of the work has already been done by 
the time you get to low enriched, but it'll take several weeks 
to get to highly enriched. They could do that either at Natanz, 
in which case they would probably have to reconfigure the 
cascades, or, if they had some hidden facility somewhere, which 
we don't know whether they do or not, but maybe, in a worst-
case scenario, one might think that they might, so----
    Senator Casey. So, that would be step one.
    Mr. Fitzpatrick. That would be step one, further enriching 
to HEU.
    Step two would be to take this highly enriched gasified 
uranium, reconvert it to metal form, and fashion the metal into 
a pit for a weapon. And then, associated with that, build the 
weapon itself, the various firing mechanisms and so forth. And 
all of that kind of work is unclassified, and I said in my 
testimony, an estimate--you know, an estimate might be at least 
6 months or more.
    A third step would be, then, to----
    Senator Casey. Six months for that step.
    Mr. Fitzpatrick. For that--at least 6 months for that step 
of weaponization.
    Then the third step would be to have some means of 
delivering the weapon. The means that is usually talked about 
is a missile, and Iran is--been working steadily on missiles, 
and there is evidence that they were trying to design a nose 
cone that could accommodate a weapon. And that's probably the 
most likely, but one could also deliver a nuclear weapon in the 
back of a truck, and, you know, it--so, the--but--so, the 
delivery, it's a little bit hard to answer that question of how 
long to build a missile and how far they are in being able to 
mate the two.
    I think the reason that the intelligence community has 
given this wide range of 2010-15 is because the 2010 is the 
worst case. If they were to take the uranium they have now, 
further enrich it to HEU, takes several months, and then at 
least 6 months to weaponize it, and then maybe they already 
have a missile they could use. So, that's the 2010. But, each 
of those--there's a lot of big ``if's'' there, and therefore, 
it might take longer.
    And one should stress, just having one weapon doesn't 
really--you know, that's a huge risk for them to take; to try 
to further enrich it, the inspectors would know. Just to get 
one weapon? It doesn't seem logical that they would do that. 
So, probably they would want to be able to--you know, if you're 
going to take that risk, you'd have more.
    Senator Casey. Thank you for that. And I wanted to pursue 
this subject a little further, but I'll move on, because I know 
we have limited time.
    I wanted to move to the question of the relationship 
between this threat--and I'm directing my question to 
Ambassador Wisner and also Mr. Haass--the question of this 
threat, that we're here to discuss, and the posture that Iran 
has to Israel, which is obviously extremely adverse and 
hostile. And I guess the first question I have is with regard 
to what's happening right now. Is it your belief that Iran is 
actively undermining the peace process in the Middle East right 
now? And if that is your belief, what's the evidence of that?
    Ambassador Wisner. Senator, the obvious facts are on the 
table. The Iranians do not recognize the state of Israel. We 
have, in the President of Iran, a Holocaust denier. Iran has 
been a principal source of advice, finance arms to Hezbollah. 
Iran is deeply involved with Hamas. Many aspects that you look 
at with regard to Iranian behavior that are distinctly hostile 
to the state of Israel.
    But, I don't think--and I think your question goes--whether 
that's the whole story. I believe the Iranians are ambivalent 
about Israel. They are realists at heart. They do not believe 
that Israel can be eliminated. But they are also determined to 
make the point that Israel cannot be a launching pad, for us or 
anyone else, in a threat to them.
    I spent one evening, some years ago, with former Iranian 
President, and said, ``Don't you realize, Mr. President, how 
dangerous it is, the armaments you're giving to Hezbollah? The 
militarization of southern Lebanon, the undertakings with 
Hamas, it can blow Israel at war in Lebanon, it spreads to 
Syria, we're involved, you're involved.'' And Katami looked 
back at me, and he said, ``Got to remember, we plan our defense 
along external lines. We're trying to keep you from putting 
your hand around our throat.''
    Now, I don't ask that you take such a statement at face 
value, but to try to look at the world that Iran sees from 
inside of Iran leads me back to the point that Senator Lugar 
made, and that is that it is vitally important we address--we 
sit down and begin, as part of our dialog, an exploration of 
what is security to Iran and how to deal with the issue of 
security.
    I am enormously taken by what Richard Haass said, Senator 
Lugar, in talking about finding a way to accept a degree of 
Iranian enrichment, but I warn Richard, all of us, that if you 
go too quickly to that conclusion, without rooting it in a 
security understanding with the Iranians, you may have cast 
aside a vitally useful way of settling the nuclear matter, 
because you won't have dealt with confidence, you won't have 
dealt with the core issues of Iranian security.
    So, I like what Richard proposed to you, but I would say, 
``Careful, don't play that card too quickly.''
    Senator Casey. I think my time's----
    Ambassador Wisner. Get your hands around the security 
question. Forgive me for----
    Senator Casey. That's OK. My time is up, but I wanted to, 
maybe, take 1 minute, if it's possible, Mr. Haass, just to 
respond, as well.
    Ambassador Haass. I don't believe Iran can stop what's 
probably the most promising possibility for a diplomatic 
breakthrough between Israel and its neighbors, which is Israel 
and Syria. The Syrian Government is in a position, if it 
wants--and there's some reason to believe it might--to enter 
into serious negotiations with Israel that could end the state 
of war between those two countries. Iran wouldn't like it, but 
I do not believe Iran is in a position to prevent it. Of all 
the situations in the Middle East, it's the one that's most 
ripe for diplomatic progress. Iran has many more cards to play, 
obviously, vis-a-vis the Palestinians; but there, I'd simply 
say Iran cannot prevent the United States or the European Union 
or anybody else from building up Palestinian policing 
capabilities or improving the economic situation on the West 
Bank. Nor can Iran prevent President Obama from giving a major 
speech in which he articulates what the United States believes 
a fair and reasonable Middle East settlement might look like, 
which, in turn, would give the moderates in the Palestinian 
world a powerful argument for explaining to their own people 
why moderation works and the guys with the guns will get them 
nowhere.
    So, yes, Iran has tried and will continue to try to 
frustrate the Middle East peace process, but they do not have a 
veto over what can happen.
    Senator Casey. Thank you.
    The Chairman. Mr. Sadjadpour, I know you want to respond 
quickly, so why don't you do that, if you'd just keep it 
tight----
    Mr. Sadjadpour. OK, I just wanted to briefly recount an 
anecdote--a brief anecdote--that will give you an idea of 
Iran's vision for the Middle East. I once relayed to a senior 
Iranian diplomat a question which a Shiite Lebanese friend of 
mine once asked me. He said, ``Think of all the money Iran has 
spent over the years on Hezbollah since Hezbollah's inception 
in 1982. We can say upward of $2 billion. And, likewise, Hamas. 
And think of how many Shiite Lebanese Iran could have educated 
to become doctors and lawyers and engineers instead of arming 
Hezbollah. And likewise, the Palestinians. And how much better 
off would those communities be, vis-a-vis Israel?'' And his 
response to me was very telling. He said, ``What good would 
that have done for Iran?'' I said, ``What do you mean?'' He 
said, ``Do you think, had we educated them to become doctors 
and lawyers and engineers, they're going to come back to South 
Lebanon and Gaza and fight Israel? No. They will remain doctors 
and lawyers and engineers.''
    And my point is that Iran is to the Middle East, in a way, 
what Rush Limbaugh is to the United States, in the sense that 
they know they can be the champions of the alienated and the 
dispossessed, but they know they can't be the champions of the 
upwardly mobile. And I think the problem with our strategy and 
Israel's strategy in the Middle East the last several years, if 
you look at the last three wars which have been prosecuted in 
the Middle East, the Iraq war, the 2006 Lebanon war, and the 
recent war in Gaza, is that we've created--we've increased the 
ranks of the alienated and the dispossessed, and we've created 
more fertile ground for Iran's ideology throughout the region.
    Senator Casey. Thank you.
    The Chairman. Thank you very much.
    We're going to resist the temptation to talk about foreign 
policy and Rush Limbaugh. [Laughter.]
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    First of all, I am a member of the Intelligence Committee, 
and I need to state, for the record, a disclaimer, and that is, 
I want to make certain that--and state, in certain terms, that 
no question I ask should be interpreted to suggest that I'm 
referring to any facts other than those facts that are widely 
known and are in the public domain. Any suggestion to the 
contrary would be inaccurate.
    Having said that, I'm struck this morning by how parochial 
this discussion has been. And I've listened to the--each of you 
describe the problem, and I'm--I can't--until I walked in to 
this hearing this morning, I thought the only two people on the 
face of this planet that believed that Israel would allow Iran 
to completely develop a nuclear weapon were the President and 
the Ayatollah in Iran. But, I'm struck that perhaps there's 
other people that think otherwise.
    If you look at the history of this, what Israel has done in 
the past, particularly in Iraq, and second, most recently, in 
Syria, and think that that points to anything other than the 
fact that Israel is not going to allow this to happen, 
regardless of what we do, we say, we hold negotiations, or we 
impose sanctions, it seems to me to be incredibly naive. 
Certainly, their intelligence, one would have to assume, is as 
good as our intelligence. And although I agree that a military 
strike will not completely take out all of the nuclear 
capability, it will certainly destroy links in the chain that 
will put them off for probably years. It just seems to me that 
this discussion needs to be--needs to include, in a lot more 
focused fashion, what's going to happen when Israel does what I 
think it inevitably will do to keep the Iranians from 
completing a nuclear weapon.
    And, Mr. Wisner, I'd like your response to that.
    Ambassador Wisner. Happy to give it.
    I have followed, as you have, the signals the Israelis have 
sent, from military exercises to political statements by 
governments that have been, in the past, and will, in the 
future be, in Israel. And any Iranian who doesn't take very 
seriously the Israeli threat to an Iranian nuclear capability 
is misjudging his nation's most vital interests. I have no 
doubt about that.
    But, where I depart, Senator, from the thrust of your 
remarks, if I understand you correctly, is, I think an Israel 
nuclear response--an Israeli military response to Iranian 
nuclear development is going to put all of us in a really, 
really very difficult situation.
    First of all, it is not clear to me that we will know, and 
Israel will know, when Iran has crossed this redline. There 
will be a tremendous amount of ambiguity; ambiguity that Israel 
might accept--it would take a--not take a chance, but it would 
put us in terrific harm's way.
    Second, I do not believe that you can knock out the Iranian 
nuclear capability, as my colleagues have asserted. The nuclear 
technologies have been indigenized in Iran. The ability to come 
back very quickly would be on the table.
    Third, I believe we will pay the price for an Israeli 
strike, just as much as Israel will, and that our other 
objectives will be compromised.
    Therefore, I would like to think that the right approach 
for the United States, looking at the anxieties of Israel, is 
to look at Israel's defenses, to talk to Israel in terms of 
security guarantees, to be able to dialogue with Israel on your 
overall diplomacy, to open up other ways to consider a response 
to the Iranian problem that is not purely military. Otherwise, 
I suggest we will fail to stop the nuclear development in Iran, 
and we will further endanger the peace of the region and 
Israel's own most vital security interests.
    Senator Risch. Well, Ambassador Wisner, I don't disagree 
with you, and I'm certainly not--I hope you didn't think that I 
was suggesting that that was a good thing. I think, however, 
that, given what we know, it seems to me a reasonable 
conclusion that that's where Israel will wind up on this. If 
you look at the threat that they felt from, most recently, 
Syria, and, before that, some years before that, Iraq, it 
wasn't nearly the threat that they feel right now with Iran 
breathing down their neck.
    And, with all due respect regarding your anticipation that 
Iran would come back very quickly, I would say that I don't 
think, necessarily, the Israelis share that conclusion. And, as 
a result of all that, I think that we need to, as we analyze 
this--and I think all of you are thinking about this--we need 
to factor in that whole scenario, because we're tremendously 
parochial. We're sitting here talking, ``Well, we'll do this, 
we'll do that. If we do this, the Iranians will do that.'' 
We've got to factor in--if you just put yourself, for a moment, 
in the shoes of the leaders of Israel, they look at this 
entirely differently than we look at it. And having said that, 
I think that needs to be factored in.
    Ambassador Haass, I know you've been wanting to get your 
two cents' worth in.
    Ambassador Haass. Yes, let me suggest why I don't share 
your certainty about Israeli behavior. One reason is, if you 
look at some historic Israeli comments about Iran's nuclear 
program, Iran has already reached the point that some Israelis 
said would be a redline and would be unacceptable, which is to 
have an industrial-strength enrichment program. So, all I'm 
saying is, the Israeli debate is somewhat fluid.
    Second of all, Israel, in the past, has made calculations 
that we never thought possible. I was involved in one of those 
incidents, as you will recall, which was in 1991, when Iraqi 
missiles struck Israel, and Israel, at the behest of the United 
States, did not exercise its obvious right of self-defense. So, 
again, all I'm saying is, I would not assume that Israel has 
made up its mind on these things.
    I also believe, as Ambassador Wisner said, that some of the 
things the United States offers to Israel could affect Israeli 
calculations, in the way of defense, possible contributions to 
Israel's own capabilities, and so forth.
    Last, though, I think it's a healthy thing that we don't 
know the answer to the question you've raised, and nor do the 
Iranians. And if I were an Iranian political leader or planner, 
I would not assume or rule out in any way that Israel might 
attack. There's a decent possibility they could, which is one 
of the reasons I said in my statement that I believe the most 
likely scenario is one where Iran stops short of a point that 
would dramatically increase the possibility of the scenario you 
suggest. If Iran goes to HEU, to highly enriched uranium, if 
Iran tests, if it weaponizes, it increases, to an unknown 
degree, the probability of the scenario you are suggesting. I 
believe, as a result, it is far more likely that Iran will 
decide, for the foreseeable future, to park, if you'll pardon 
the untechnical word, its capability in this realm at the level 
of large-scale low enrichment, in part because of the 
uncertainty about how Israel and the United States might react.
    Senator Risch. Well, I would just conclude with--I think 
that anyone who thinks that Israel hasn't thought this through 
and has an idea of where they're going to go with this, I think 
would be very naive. And, again, I want to urge, in the 
strongest terms, that everyone should factor this into our 
ideas of where we are going with this, because, again, you 
know, admittedly, Israel has not acted, to this point. But, you 
remember, they took 4,000 rockets from Hamas before they acted, 
recently, in Gaza. And so, they are a little bit like us, in 
that they will--they'll wait and do what they have to do. But, 
this--as we know--we've watched the Europeans negotiate with 
Iran for, what, 5 years, 5\1/2\ years; and, through all those 
negotiations, and through all of this, all they do is put one 
foot in front of the other, getting toward where I think, and 
even Ambassador Wisner has concluded, that they will eventually 
wind up, regardless of what we do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch. Very important line 
of questioning. Appreciate it.
    Senator Kaufman.
    Senator Kaufman. Mr. Chairman, thank you for holding this 
hearing. I think it's incredibly worthwhile.
    And I think--to direct my--comments by Senator Risch, I 
think the panel's talked about missed opportunities, and I 
think several of you mentioned that the time is now to operate. 
And I think that Senator Risch's comments are one more 
indication that we have to move quickly on this thing, and that 
we have to--we have to move carefully, and we have to be 
careful about what we do. But, we have used up all of our get-
out-of-jail-free cards.
    Ambassador Haass, you said that you thought life's a matter 
of priorities, something I definitely agree with. And you said 
that, therefore, we should be thinking about missile defense in 
our relations with the Russians, and how that may be something 
we trade. Do you have any suggestions, does anyone on the panel 
have suggestions, things that might work the same way with 
China?
    Ambassador Haass. Well, I'd say two things about China. 
Well, maybe three. One is, China has a different relationship 
with Iran, as you know, than does Russia, and has a different 
set of calculations. Another, which is good for us, is that 
China has no interest in the price of oil going up, as a large 
importer, which gives China a stake in energy security and the 
peaceful working-out of this issue. And going back to the 
previous comments, if China is concerned that certain scenarios 
could lead to uses of force, it will concentrate some minds in 
Beijing.
    Second, China does not want to be the odd man out on the 
U.N. Security Council. We have reason to believe we can get the 
British and French to line up with us on most approaches. It's 
why I put such an emphasis, as do others, on Russia. I believe 
that if we can get Russia to line up, Beijing will be extremely 
reluctant to be the odd man out.
    Third, the United States and China have a developed and, 
shall we say, integrated relationship. And China, right now, is 
suffering significantly as a result of the American economic 
slowdown. Its unemployment rates are going up and they've had 
to essentially stop the movement or resettlement of people from 
rural areas into urban ones. They are obviously going to worry 
about the political consequences of a lack of economic growth, 
given that their last quarter had no economic growth. All of 
those things argue against Iran scenarios that could place 
greater stress on the world economy.
    For all of those reasons, reinforcing the arguments you've 
heard today, we ought to take a serious diplomatic effort at 
bringing the Chinese on board. I'm not suggesting it's going to 
be easy in any way. And as Frank Wisner said, we may have to 
dilute what it is we want. But I believe it is well within the 
realm of possibility, particularly if the Obama administration 
makes clear to the Chinese that this is a priority for the 
United States, and China's behavior on this issue will be at 
the head of the list of how this administration will come to 
judge China and its willingness to take our vital national 
interests into account.
    Senator Kaufman. Ambassador Wisner.
    Ambassador Wisner. I like what Richard just said. I'd just 
add a footnote, and that is, the Chinese, in coming to the 
decision that he described, will arrive at it very painfully. 
The Chinese have, deeply rooted in their view, a predisposition 
against interference in other nations' activities. They are 
very hard to move, and they are very hard to break loose from 
the Russians. I'm thinking of many examples in recent years it 
has proved to be the case.
    Rationally, Richard's put his finger on why there is a 
reason and an opening, but I come together with him in saying 
that if there is a chance of moving Chinese diplomacy, it will 
have to be a very high American priority and be clearly 
understood by the Chinese to matter to the Obama 
administration.
    Senator Kaufman. And it's also interesting how often around 
this town different people want different things to be our No. 
1 priority with China. I mean, we've got so many things to talk 
about China. But, I think you make a good point on this being 
one of our very highest priorities.
    Mr. Sadjadpour, on Meet the Press, Secretary Gates said 
he's been searching, for 30 years, for the elusive Iranian 
moderate. I know you know a lot about what's going on in Iran. 
What are the forces of moderation in Iran? And do you think 
they'll have any impact on the June elections?
    Mr. Sadjadpour. I'm sorry?
    Senator Kaufman. On the elections. What are the forces for 
moderation in Iran? And do you think they'll have any impact on 
the elections?
    Mr. Sadjadpour. I would describe the internal debate in 
Iran as somewhat akin to the debate we have in the United 
States between textualist and constructionist scholars of the 
Constitution, in the sense that you have many Iranians, hard-
liners, who believe that anti-Americanism is central to the 
identity of the Islamic Republic, and one of the core pillars 
of the revolution. And if you abandon this anti-Americanism, 
then what's left of the revolution and what's left of the 
Islamic Republic?
    And I think you have plenty more moderates--and I would 
say, the vast majority of the population--who understand that 
it's time to move on, that policies that came into play in 1979 
are not constructive in 2009. And--I would put, again, the vast 
majority of the Iranian people in that category--and, based on 
my time in Tehran, the vast majority of the political elite.
    At the moment, I think the hard-liners very much benefit 
from this antagonistic relationship with the United States. And 
that's why they want to continue to propagate it.
    Senator Kaufman. Yes.
    Mr. Sadjadpour. And, you know, it allows them a pretext--
this threat perception from the United States--it allows them a 
pretext to clamp down on the population, narrow the accepted 
realm of political discourse, and rig elections.
    But I do think, like Ambassador Wisner, having had private 
conversations with former President Khatami, that he is in the 
constructionist camp, in the sense that he knows very well that 
Iran will never fulfill its enormous potential as long as its 
relationship with the United States remains adversarial. And I 
think we should make it clear to the Iranians that, when and if 
they are ready to change their approach, there's a standing 
offer from the United States that we will be ready to 
reciprocate.
    Senator Kaufman. Mr. Fitzpatrick, you talked about the 
domino effect with Iran's nuclear program, and I noticed in 
your testimony you said 15 countries in the Middle East. I 
never realized that that many have announced new or revived 
plans to explore civilian nuclear energy in 2006. What do you 
think the regional governments think about Iran's nuclear 
program?
    Mr. Fitzpatrick. I think most of them are very concerned 
about it. In the gulf region, Bahrain, United Arab Emirates, 
Saudi Arabia, they see it as a potential direct threat, because 
they've had, some of them, territorial disputes, they have 
sectorial disputes, Iran has, in the past, interfered in their 
domestic politics. Other countries a little bit further afield 
feel that if Iran had a nuclear weapons capability, their own 
status would necessarily decline. Egypt used to be the center 
of the Muslim world, and they see the financial center moving 
to the gulf, they see the political center increasingly being 
encroached upon by Iran, and they would worry about that 
status. Turkey is in a kind of a similar position.
    All of the--several of these countries, though, are willing 
to forgo an enrichment and reprocessing capability. And I think 
it's a very positive momentum that the United States and its 
policies can try to promote this positive momentum. It'll be 
very difficult to get Egypt to accept any constraints, as long 
as Israel doesn't accept any constraints. And that's why a lot 
of these issues are intertwined. But, there is some positive 
momentum in the region.
    Senator Kaufman. Great.
    Ambassador Haass, you talked about how important public 
opinion was. Is there anything the United States should be 
doing, or could be doing, to influence public opinion in Iran, 
about nuclear, especially?
    Ambassador Haass. The best thing we can do, Senator, is to 
come up with an offer that demonstrates to the Iranian man or 
woman on the street how his or her standard of living would go 
up significantly if Iran accepted the sort of limits the 
international community wants to place on its nuclear program 
and that this could be done consistent with Iran's pride, its 
national honor. Or, to put it another way, that their 
government is following a course, if they continue down the 
nuclear path, that is sacrificing the quality of life for every 
Iranian. Iran is not a democracy, but there is a degree of open 
debate. There are democratic elements, if you will, in Iranian 
society.
    Future Iranian leaders will have to deal with this sort of 
pressure from below. Our public diplomacy ought to be the exact 
replica of our private diplomacy. So, we shouldn't think of 
public diplomacy as something differently there. In this case, 
it ought to be exactly the same as what we say, and I believe 
that will help us with Iran. And, as I said before, it will 
help us here at home, and it'll help us in Moscow, and, coming 
back to your previous question, in Beijing.
    Senator Kaufman. OK. Thank you all.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    Let me just say to the panel, we have a vote that's gone 
off. Senator Menendez will have his full time for questioning 
and still be able to get over to make the vote. And I will 
leave it to him to adjourn the hearing.
    But, I just want to thank you, on behalf of the committee. 
This has been enormously instructive, very, very helpful. There 
are many other questions. We are going to leave the record 
open, and we would like to impose on you to submit some 
questions for the record, if we can.
    The Chairman. And this is a conversation that will 
continue. We have several days of hearings, some classified. 
And subsequently, we'd like to engage as we sort of think about 
the road forward.
    But, this has been enormously helpful today. We thank you.
    Senator Menendez.
    Senator Menendez [presiding]. Thank you, Mr. Chairman.
    And thank you all for your testimony. I was grabbing at 
some of it in my office, read some of it along the way. And I 
have two sets of questions.
    One is, there are news reports that came out today that 
President Obama sent a letter to Russia's President last month 
suggesting that he would back off deploying a new missile 
defense system in Eastern Europe if Moscow would help stop Iran 
from developing the long-range weapons that we are concerned 
about. And that letter supposedly, further on, said the United 
States would not need to proceed with such an interceptor 
system, which, of course, the Russians have vigorously opposed, 
if Iran halted any efforts to build nuclear warheads and 
ballistic missiles.
    Do you think that that is a sufficient enough incentive to 
get the Russians to be engaged in a manner in which we would 
like to see? And it's open to anyone who wants to----
    Ambassador Haass. I would describe it as necessary, but 
possibly not sufficient. There's a logic to it, in any event. I 
think it was Secretary Gates who also noted the linkage, that 
if the missile system is largely designed to counter an Iranian 
missile that might be carrying a nuclear warhead, if we can get 
Russian help to place a limit on the Iranian nuclear program, 
the rationale for the missile program obviously fades 
significantly. But, I don't think we could get what we want 
from the Russians on this, in isolation from the rest of the 
United States-Russian relationship.
    And that, then, returns to something your former colleague, 
Vice President Biden, said when he talked about resetting the 
button on the United States-Russian relationship. The 
administration will have to think about how hard we criticize 
the Russians over what's going on domestically there, whether 
we're willing to support WTO accession, the question of how we 
handle, not just Georgia, but Georgian and Ukrainian desires to 
become members of NATO, and so forth.
    We are going to have to look at this against all those 
factors. Also, there is the question of United States-Russian 
nuclear negotiations. It's going to have to be done in the 
fullness of the relationship. But, the short answer is, if we 
were to make clear the linkage with the missile deployment 
proposal, and if it were done in the context of an overall 
improvement in United States-Russian relations, yes, then I 
think this is manageable.
    Senator Menendez. Anyone have a different view?
    Ambassador Wisner. I don't have a different view, but I 
would only add one more circle of complexity, and that is, it's 
not just about the United States and Russia; we're going to 
have to be extremely careful who we deal with the Czechs and 
the Poles. And the way we presented the matter to NATO, there's 
going to have to be an acceptance that the linkage we're 
talking about, in fact, affects--is an effective linkage.
    So, I think we've only seen a--my sense is that we've seen 
just the tip of the iceberg of what is actually in play, and 
we've got to learn a lot more before we can make a judgment.
    Senator Menendez. Well, it sounds like a much broader 
agenda in order to get them engaged in the way in which we 
want. And the clock is ticking.
    I've heard all of you basically testify, please let me know 
if I'm wrong, that we should be more vigorously engaging Iran. 
And the ``P5+1'' process committed themselves to a dual-track 
process. But, I have not received a sense of what they view 
that dual process--the elements of that dual process, moving 
forward. Do you all have ideas about that? At the same time as 
we're talking, the clock is also ticking, and so, what do you 
think that dual process being, or should it be in the process, 
both on the negotiation-engagement side, as well as on the 
sanctions side?
    Mr. Fitzpatrick. Thank you, Senator.
    I think everyone engaged in the P5 process is dedicated to 
the proposition that Iran should be presented these clear 
choices of either cooperating with the world and receiving 
cooperation in exchange, or pursuing the path they are on, of 
obtaining a nuclear weapons capability, and the isolation, 
politically and economically, that goes with that.
    And most of the other partners are willing to see some 
strengthening of both sides of this choice, but there are 
differences of opinion in the other nations.
    Sometimes there is a view, in this country, that the 
Europeans are united in thinking that we should only pursue 
engagement, and not strengthen the disincentives part of it. 
And the Europeans are quite different on that.
    I work and live in London. The British and French are 
probably to the right of the United States right now. They're a 
little worried, frankly, about U.S. policy of unconditional 
engagement. I think they will follow United States leadership, 
but they have some concerns, because their policy had been that 
if Iran broke the deal with them of suspending its enrichment 
program, that there wouldn't be negotiations on the nuclear 
front. So, we're going to have to work closely with the British 
and French if the United States embarks on a different policy.
    Senator Menendez. Any other views? Any views on what the 
sanction side of this should be as we pursue the negotiation 
side?
    Ambassador Haass. Well, I think what's come out of the 
conversation this morning, Senator, is a general view that 
those sanctions and incentives ought to be linked fairly 
directly to Iranian behavior in this area.
    You could almost think of it as a sliding scale, that if 
they continue down the path of, say, continued low enrichment, 
there would be one mix of sanctions; and if they were to cross 
certain other thresholds, they would then be met with an 
escalation of sanctions. Conversely, if they dialed back their 
capabilities, placed real limits on the scale of enrichment and 
accepted intrusive inspections that gave the world confidence, 
the mix of benefits and sanctions would turn more in the favor 
of the benefits. So, it's almost useful to think of it as 
multiple redlines, almost a spectrum, and then a rheostat of 
approaches that blend desanctioning and sanctioning.
    Such an approach has the advantage of having at least the 
potential to garner some international support, which is 
essential. It might also play well in Iran, because it makes 
more stark the consequences of policy choices by the Iranian 
Government, and we want them to have to think about those 
consequences and put them on the defensive and force them to 
think about, in advance, the difficulty of defending the 
choices we don't want them to make.
    Senator Menendez. Well, thank you. I'm going to have to go 
to this vote, but I appreciate your collective testimony and 
your answers to my question.
    And with that, seeing no other members, the committee is 
adjourned. Thank you for your testimony.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Kirsten Gillibrand, 
                       U.S. Senator From New York

    Thank you, Mr. Chairman, for holding this critical hearing. I want 
to also recognize our distinguished panelists for joining us today to 
share their expertise and recommendations and look forward to hearing 
their testimony.
    Iran's stated interest in nuclear technology is one of the most 
serious national security challenges facing the United States and the 
entire international community.
    Over the past 8 years, we have seen the growth in Iran's power and 
influence in the region, threatening our Nation's interests in the 
Middle East.
    Iran is a chief supporter of terrorist groups like Hezbollah and 
Hamas, supplying them with both weapons and financial assistance to 
carry out their attacks.
    As we heard from the Chairman of the Joint Chiefs, ADM Michael 
Mullen, who I had the honor to meet with last week, Iran now has enough 
uranium that if further purified, could be used to build an atomic 
bomb--a process that could be completed in just months.
    This alarming news is compounded by the fact that Iran's Government 
is isolated and its economy vulnerable--making them even more dangerous 
and unpredictable.
    Iran's nuclear quest is an existential threat to our ally Israel, 
the Middle East as a whole, and to world stability.
    To address this growing concern, the United States has begun a 
process of engagement with Iran. There is good reason to believe that 
there are elements in Iran who recognize that it is in Iran's best 
interest to engage.
    Effective engagement now is essential.
    Additionally, while offering positive incentives to Iran, the 
United States must continue to strengthen international pressure to 
make it clear to Iran that its failure to work with the international 
community will have significant repercussions. We must continue to work 
with Russia and China by using diplomatic solutions to influence Iran 
favorably.
    These additional measures should include targeted sanctions on the 
Revolutionary Guard, which this body urged the Secretary of State to 
include on the list of recognized terrorist groups; a measure I 
supported.
    We should also seek increased limitations on Iran's importation of 
refined petroleum products. Despite being a major oil producer, Iran 
imports close to half its gasoline. I support the efforts of our 
colleagues in the House who recently sent a letter to Secretary of 
Energy Chu requesting that he reevaluate a recent federal contract 
awarded to the Swiss firm that is Iran's leading supplier of gasoline.
    Again, thank you, Mr. Chairman, for holding this important hearing 
and I look forward to receiving the testimony of our distinguished 
panelists.
                                 ______
                                 

  Responses of Mark Fitzpatrick to Questions Submitted for the Record 
                       from Senator John F. Kerry

    Question #1. The February 2009 report by the IAEA Director General 
found that Iran, at its Natanz Fuel Enrichment Plant, is reportedly 
feeding uranium into nearly 4,000 centrifuges (of the ``IR-1'' design) 
and has about 1,600 more installed in reserve. The latter figure is a 
significant increase from the November report. The report also noted a 
10-machine cascade of ``IR-2'' centrifuges and a single ``IR-3'' 
centrifuge.

  <bullet> Is there anything about the publicly available evidence, 
        such as the amount of uranium that has been fed into the 
        centrifuges, that provides information about whether Iran is 
        getting better at operating its centrifuges?

    Answer. In 2008, Iran rapidly improved the operation of its 
centrifuge cascades, moving from 20 percent to 85 percent of claimed 
capacity (based on the UF6 feed rate). The most recent IAEA report 
indicated a feed rate of 80 percent. It is not clear whether the feed 
rate is based solely on technical capabilities or whether political 
calculations are also a factor. However, the 80-85 percent feed rate 
does suggest that Iran has overcome many of the technical difficulties 
it previously was experiencing operating centrifuge cascades. Based on 
the reported quantities of low-enriched uranium produced, Iran seems to 
be maintaining a fairly steady rate of production with its operating 
centrifuge machines. The ability to maintain steady production is an 
important indicator of capability. At the current scale, however, this 
consideration is only applicable to enrichment for weapons purposes. If 
the main intent was the long-term production of low-enriched uranium 
for power reactor fuel, Iran would not have rushed to install nearly 
6,000 centrifuges before testing smaller cascades for longer sustained 
periods.

  <bullet> What does Iran's development of two other designs of 
        centrifuges tell us about Iranian understanding of centrifuge 
        technology?

    Answer. Iran's development of more advanced centrifuge designs 
suggests a growing familiarization with this enrichment technology. 
After having received a head start from the A.Q. Khan network, which 
supplied it with both P-1 and P-2 centrifuge technology, Iran 
apparently has been able to modify this technology further. Efforts to 
produce advanced centrifuges appear to be still at the R&D stage. It is 
not clear whether Iran has all the material and components it would 
need to be able to produce large numbers of these newer centrifuges. If 
there is such a bottleneck, strict export controls and sanctions 
enforcement can help to keep Iran's program limited.

    Question #2. The February 2009 report of the IAEA Director General 
stated that the IAEA had not made any progress on the remaining issues 
``which give rise to concerns about possible military dimensions of 
Iran's nuclear programme.'' To make such progress, the report stated, 
``Iran needs to provide substantive information, and access to relevant 
documentation, locations and individuals, in connection with all of the 
outstanding issues.''

  <bullet> Do you think the current Iranian regime will ever be able to 
        fully answer the questions about Iran's past efforts that the 
        IAEA has posed?

    Answer. I see no reason why Iran would not be able to fully answer 
questions about its past nuclear activities, but whether it will ever 
summon the political will to do so is another matter, since it almost 
surely would mean admission of nuclear weapons development work. Such a 
full admission would probably require a strategic change on the part of 
Iran to reject such work in the future. Obtaining a full admission of 
past nuclear weapons work may also require a decision on the part of 
the rest of the international community not to apply punitive sanctions 
based on such an admission--a ``get out of jail free'' card, as it 
were. This would be worth considering as long as it came with full 
disclosure by Iran and verification measures that provided confidence 
that its current nuclear activities were entirely for peaceful means.

  <bullet> What steps should the United States take or avoid to get 
        satisfactory answers to these questions?

    Answer. The United States should continue to strongly support the 
IAEA's investigation of Iran's past activities. Given the 
administration's stated intent to engage in ``tough, direct'' diplomacy 
with Iran, as reflected in President Obama's Nohruz message, the 
context in which Iran must consider its stance at the IAEA may be 
evolving. Of course, the United States and others should not lose sight 
of the fact that the IAEA has a verification task in Iran regardless of 
external political dynamics. That job is central not only to the Iran 
issue, but to the continued viability of the nuclear nonproliferation 
regime.

    Question #3. You stated in your testimony that publicly available 
information suggests that, if Iran decided to build the core of a 
nuclear weapon, it might take Iran at least 6 months to convert highly 
enriched uranium hexafluoride gas to metal and fashion a weapon from 
it, in addition to the several weeks it would take to enrich a 
stockpile of low-enriched uranium to highly enriched levels. You also 
say that Iran could not take the additional enrichment and conversion 
steps you talked about to ready its low-enriched uranium stockpile for 
a bomb without tipping off international inspectors. How quickly would 
inspectors find out, and therefore, how much warning time might the 
world have?

    Answer. The IAEA conducts about 12 unannounced inspections a year 
at Natanz, on a random basis. Although not all such random visits 
include access to the cascade halls, the IAEA's surveillance cameras 
can detect movements in and out of halls. In addition, the feed and 
withdrawal areas are under containment and surveillance and checked 
monthly. The safeguards measures at Natanz are not ideal; of particular 
importance they do not include remote monitoring. At the current scale 
of operations, however, the combination of unannounced inspections and 
surveillance cameras means that if Iran were to try to divert nuclear 
material or to produce HEU at Natanz, it would probably have no longer 
than a month and probably less than that before the international 
community was alerted through the IAEA.

    Question. Do you believe that Iran has decided to develop a latent 
deterrent by producing fissile material, even if it does not proceed 
with weaponization or nuclear testing?

    Answer. I have seen no evidence to suggest that Iran has made a 
decision to produce weapons-usable fissile material. There is no need 
for it to make such a decision for the time being, however, especially 
since it could not produce any more than the bare minimum of highly 
enriched uranium necessary for one implosion-type weapon. That said, 
there is no plausible logic to the enrichment program at Natanz unless 
it includes a desire to create at least the option to produce fissile 
material for weapons.

    Question #4. How relevant is any assessment of Iran's intentions, 
given the relatively small amount of time it would take to convert a 
program for ostensibly peaceful civilian uses into a bomb program?

    Answer. In the case of Iran, capabilities are the most critical 
factor in assessing worst-case possibilities, but intentions are not 
irrelevant. If capabilities were all that mattered, nations might have 
reason to be concerned by the small number of months it might take 
countries such as Japan and the Netherlands to produce a nuclear 
weapon. But these nations have not given any reason for concern about 
their intentions. In the case of Iran, there are ample reasons to be 
concerned.

    Question #5. In your testimony, you mentioned ``strong evidence'' 
of past nuclear weapons development activities, including, for 
instance, evidence of foreign assistance with experiments on a 
detonator suitable for an implosion-type bomb. What unclassified 
information is available regarding this foreign help you describe in 
your testimony?

    Answer. The IAEA's September 15, 2008, Iran report (GOV/2008/28) 
said the Agency had obtained information indicating that 
``experimentation in connection with symmetrical initiation of a 
hemispherical high explosive charge suitable for an implosion type 
nuclear device . . . may have involved the assistance of foreign 
expertise.'' An October 10, 2008, New York Times article by Elaine 
Sciolino (``Nuclear Aid by Russian to Iranians Suspected'') reported 
that the IAEA was investigating whether a Russian scientist, acting on 
his own, helped Iran conduct complex experiments on how to detonate a 
nuclear weapon. My own interviews have confirmed that the IAEA has 
strong evidence that a former U.S.S.R. nuclear weapons expert was 
working in Iran.

    Question #6. The Iranians were caught red-handed in mid-2002 
running a secret nuclear program in violation of their obligations to 
the IAEA and the Nuclear Non-proliferation Treaty (NPT). Yet they 
managed to string out negotiations with the international community to 
the point where today they are operating an enrichment facility buried 
under about 75 feet of concrete to protect against possible air 
strikes.

  <bullet> What impact does the Iranian case have on the NPT regime? 
        How will it affect the ability to restrain the ambitions of 
        other countries tempted to pursue a nuclear weapons capability 
        under the guise of a peaceful civilian nuclear program?

    Answer. The NPT has withstood several challenges over the years and 
remains a strong cornerstone of the global nonproliferation regime. If 
the NPT system is unable to prevent Iran from producing nuclear 
weapons, however, this failure may call into question the very purpose 
and utility of the treaty, and it could trigger a proliferation turning 
point. This is not to say that other nations would necessarily pursue a 
nuclear weapons capability under the guise of a peaceful civilian 
nuclear program. Even if the sanctions that are levied against Iran do 
not ultimately persuade it to change its course, these sanctions, if 
strong enough, can serve a secondary function as a disincentive to 
others, if combined with other policy tools, including the 
strengthening of defense commitments, that reduce proliferation 
motivations.

  <bullet> How can we strengthen the NPT regime so that countries like 
        Iran are discouraged from following North Korea's example by 
        withdrawing from the NPT, barring IAEA inspectors, and 
        reconfiguring their technologies to produce weapons-grade 
        material?

    Answer. The North Korean case underscores the need to strengthen 
the NPT Article X withdrawal clause. I believe that, at a minimum, the 
Security Council should adopt a resolution stating that an NPT party 
that withdraws from the treaty remains responsible for safeguards 
violations committed while it was a party to the treaty. The first 
priority, however, should be on swift measures to stem proliferation 
programs as soon as a problem is discovered. The U.N. Security Council 
does not necessarily need to wait to take up a proliferation issue 
until there is a formal IAEA finding of noncompliance.

  <bullet> Pierre Goldschmidt, a former Deputy Director General of the 
        IAEA, has proposed that the Security Council pass a resolution 
        establishing automatic actions that would take place if a 
        country were to withdraw from the NPT, and making clear that if 
        such a country is in violation of the NPT when it withdraws, 
        its obligations under the treaty would continue and all nuclear 
        materials previously provided to it would be withdrawn. How 
        useful would such a Security Council resolution be, and how 
        difficult would it be to pass it?

    Answer. Dr. Goldschmidt's proposal has strong merit, in that it 
would establish a new legal standard ensuring that states cannot easily 
escape their NPT obligations and pay no legal penalty for violations. 
Adopting such a resolution would be difficult, however. The members of 
the Security Council have generally resisted resolutions that would 
provide for automatic responses to future situations.

    Question #7. In your testimony you portrayed the nuclear program 
envisioned by the United Arab Emirates as a model for the region. The 
United States and the United Arab Emirates have signed an agreement for 
cooperation on civil nuclear energy, though it has not yet entered into 
force. That agreement is built on the UAE carrying out a pledge to 
forgo domestic uranium enrichment and plutonium reprocessing 
facilities.

  <bullet> Should the United States cooperate with the UAE civilian 
        program, even with the concerns about their ability to prevent 
        sensitive technologies from being diverted to other 
        destinations?

    Answer. A nuclear cooperation agreement that locks in the UAE's 
commitment not to pursue enrichment or reprocessing technologies would 
be a useful precedent and would set a very clear contrast with the case 
of Iran. I believe it would be inadvisable to hold up the proposed 123 
agreement with the UAE on other grounds, such as the past history of 
Dubai as a hub for the Khan nuclear black market network. The UAE is 
implementing new export control laws put in place at Washington's 
recommendation. In order to crack down on Iranian front companies, the 
UAE in 2008 sharply reduced the number of business licenses and work 
visas to Iranian citizens. Nevertheless, UAE export controls still need 
to be tightened, particularly in the emirate of Dubai, in order to stem 
the flow of illicit transshipments to Iran in contravention of U.N. 
sanctions. One way to assist the UAE in this effort would be to give 
the U.N.-Iran sanctions monitoring committee real responsibility and a 
hands-on role by stationing customs experts in Dubai.

  <bullet> Should we offer a similar deal--cooperation on civil nuclear 
        matters in exchange for a civilian nuclear industry that did 
        not include enrichment and reprocessing facilities--to other 
        countries in the region?

    Answer. If states agree not to pursue enrichment and reprocessing 
and agree to full nuclear transparency through good-faith 
implementation of the IAEA Additional Protocol, then there is no reason 
on proliferation grounds not to enter into nuclear cooperation 
agreements that codify such agreements. Indeed, it would be ideal if 
such conditions became the ``gold standard'' and were encouraged by 
other nuclear exporting states as well.

                                  <all>

</pre></body></html>
